<html>
<title> - [H.A.S.C. No. 111-71]NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2010 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED  ELEVENTH CONGRESS FIRST SESSION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



                         [H.A.S.C. No. 111-71]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2010

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                 STRATEGIC FORCES SUBCOMMITTEE HEARING

                                   ON

                      BUDGET REQUEST FOR NATIONAL

                       SECURITY SPACE AND MISSILE

                            DEFENSE PROGRAMS

                               __________

                              HEARING HELD

                              MAY 21, 2009




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                  U.S. GOVERNMENT PRINTING OFFICE
51-958                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






                     STRATEGIC FORCES SUBCOMMITTEE

                ELLEN O. TAUSCHER, California, Chairman
JOHN SPRATT, South Carolina          MICHAEL TURNER, Ohio
LORETTA SANCHEZ, California          HOWARD P. ``BUCK'' McKEON, 
ROBERT ANDREWS, New Jersey               California
JAMES R. LANGEVIN, Rhode Island      MAC THORNBERRY, Texas
RICK LARSEN, Washington              TRENT FRANKS, Arizona
MARTIN HEINRICH, New Mexico          DOUG LAMBORN, Colorado
SCOTT MURPHY, New York
                Bob DeGrasse, Professional Staff Member
                 Frank Rose, Professional Staff Member
                 Kari Bingen, Professional Staff Member
                      Zach Steacy, Staff Assistant











                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Thursday, May 21, 2009, Fiscal Year 2010 National Defense 
  Authorization Act--Budget Request for National Security Space 
  and Missile Defense Programs...................................     1

Appendix:

Thursday, May 21, 2009...........................................    41
                              ----------                              

                         THURSDAY, MAY 21, 2009
FISCAL YEAR 2010 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST FOR 
          NATIONAL SECURITY SPACE AND MISSILE DEFENSE PROGRAMS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Tauscher, Hon. Ellen O., a Representative from California, 
  Chairman, Strategic Forces Subcommittee........................     1
Turner, Hon. Michael, a Representative from Ohio, Ranking Member, 
  Strategic Forces Subcommittee..................................     3

                               WITNESSES

Kehler, Gen. C. Robert, USAF, Commander, Air Force Space Command, 
  U.S. Department of Defense.....................................     6
O'Reilly, Lt. Gen. Patrick J., USA, Director, Missile Defense 
  Agency, U.S. Department of Defense.............................     7

                                APPENDIX

Prepared Statements:

    Kehler, Gen. C. Robert.......................................    45
    O'Reilly, Lt. Gen. Patrick J.................................    63

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Franks...................................................   119
    Mr. Turner...................................................   119

Questions Submitted by Members Post Hearing:

    Mr. Lamborn..................................................   126
    Mr. Turner...................................................   125
 
FISCAL YEAR 2010 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST FOR 
         NATIONAL SECURITY SPACE AND MISSILE DEFENSE PROGRAMS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                             Strategic Forces Subcommittee,
                            Washington, DC, Thursday, May 21, 2009.
    The subcommittee met, pursuant to call, at 2:03 p.m., in 
room 2118, Rayburn House Office Building, Hon. Ellen Tauscher 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. ELLEN O. TAUSCHER, A REPRESENTATIVE 
    FROM CALIFORNIA, CHAIRMAN, STRATEGIC FORCES SUBCOMMITTEE

    Ms. Tauscher. Good afternoon.
    This hearing of the Strategic Forces subcommittee will come 
to order.
    Today the subcommittee will receive testimony on the 
President's fiscal year (FY) 2010 budget request for national 
security space and missile defense programs.
    Traditionally, this subcommittee would have held separate 
hearings on both of these topics. After all, unclassified 
national security space programs account for over $11 billion 
of the President's request, and the total request for ballistic 
missile defense (BMD) programs tops $9.3 billion.
    Unfortunately, the timing of the budget submission and the 
committee's legislative schedule have made it impossible to 
hold two separate hearings before our markup. That said, the 
good news is that the subcommittee has held four hearings and 
two briefings on specific aspects of these programs already 
this year.
    Appearing before the committee this afternoon are two well-
known witnesses. Both of them are well equipped to address 
these two major elements of the President's defense budget.
    First, General Robert Kehler, the Commander of Air Force 
Space Command (AFSPC), will address the national security space 
aspects of the budget.
    Second, Lieutenant General Patrick O'Reilly, Director of 
the Missile Defense Agency (MDA), will discuss the missile 
defense budget request.
    I want to thank both of our distinguished witnesses for 
appearing before the subcommittee today. And I especially want 
to thank, on behalf of the committee, all of the men and women 
that serve with you both in the military and the civilian 
ranks, and especially the people sitting right behind you, who 
I know have worked very hard on this testimony that you have 
submitted well before the deadline, and we very much appreciate 
how comprehensive it is.
    But you certainly represent the Services that have the most 
people involved in these programs. They are very excellent 
people, and they are very patriotic Americans. And we want you 
to please extend to them, on behalf of this committee, our very 
heartfelt thanks for their service.
    Before turning to our witnesses, I would like to briefly 
identify some of the key issues we hope the witnesses will 
address in the course of their testimony today.
    National security space systems provide a wide variety of 
capabilities to our warfighters by offering global access, 
unhindered by geographic or political boundaries and 
unrestricted by surface or air defenses. While the funding 
requests for most major space programs remains consistent with 
past plans, the fiscal year 2010 request contains several 
significant programmatic shifts.
    First, it recommends terminating the Transformational 
Communications Satellite System, or TSAT, program. Second, it 
expands funding for other military satellite communications 
systems. And, finally, the request provides a significant 
increase for Space Situational Awareness (SSA) programs.
    During the past decade, most national security space 
programs have experienced significant cost increases and 
schedule delays.
    General Kehler, I would ask you to discuss how the budget 
before us today will help deliver satellite systems in a more 
timely and cost-effective manner. More specifically, what are 
the Administration's plans for ensuring that the warfighter 
will have sufficient, protected communication bandwidth in the 
next decade after the termination of the TSAT program, and what 
will happen with the engineering and technical talent who have 
focused on this problem?
    The subcommittee has also focused significant attention on 
the vulnerability of space-based systems in recent years. In 
that regard, General Kehler, how will the budget before us 
address the increasing vulnerability of our satellite system?
    Turning to the issue of missile defense, Secretary Gates 
has incorporated key decisions into the budget that, in my 
view, refocus the program to its original purpose and to the 
most pressing threats to the security of the United States and 
our deployed troops and allies.
    In 1999, Congress passed, and the President signed, House 
Resolution (H.R.) 4. That law established the policy of the 
United States to, ``Deploy, as soon as technologically 
possible, an effective national missile defense system capable 
of defending the territory of the United States against limited 
ballistic missile attack, whether accidental, unauthorized, or 
deliberate.''
    Secretary Gates announced three decisions to refocus the 
program on their original goals and to address the most 
pressing threats.
    First, he has proposed capping the deployment of long-range 
missile defense interceptors deployed in Alaska and California 
at 30, arguing that these 30 interceptors would be more than 
sufficient to counter rogue threats or unauthorized launches 
for the foreseeable future.
    Second, he proposed cancelling three programs: the Multiple 
Kill Vehicle (MKV), the Kinetic Energy Interceptor (KEI), and 
the second Airborne Laser (ABL) prototype aircraft. These are 
programs that have been pursued to counter long-range missile 
threats that could develop in the future. Each has experienced 
technical challenges and some are unlikely to be cost effective 
if deployed.
    Finally, the secretary has recommended a $900 million 
increase in funding for theater missile defense programs, such 
as the Aegis Ballistic Missile Defense System and the Terminal 
High Altitude Area Defense (THAAD) System. This decision will 
better protect our deployed forces, allies, and friends against 
the existing short- and medium-range ballistic missile threat, 
and it is consistent with the demands of our combatant 
commanders for more interceptors for theater defense.
    General O'Reilly, in the course of your testimony today, 
could you describe how the Secretary reached these decisions? 
Were you consulted in the decision-making process? Did the 
Missile Defense Agency recommend these actions? And do you have 
any reservations about the Secretary's decision?
    As we dig into the details of the budget, I would also like 
to hear about your new plans for exploring ascent phase 
intercept technologies to hedge against more complicated 
threats in the future.
    With that, let me turn to my good friend, the distinguished 
ranking member of the subcommittee, Mr. Turner, of Ohio, for 
any comments he may make.
    Mr. Turner.

 STATEMENT OF HON. MICHAEL TURNER, A REPRESENTATIVE FROM OHIO, 
         RANKING MEMBER, STRATEGIC FORCES SUBCOMMITTEE

    Mr. Turner. Thank you, Madam Chair. I appreciate your 
holding this hearing and, of course, your continued leadership 
in this.
    And I have been assured by staff that even though we all 
know that you are awaiting confirmation by the State Department 
that that process will continue and you will continue to chair 
our subcommittee.
    I want to ensure that we get ample time to be able to 
congratulate you in another hearing just prior to your 
departure. So, please ensure that we get that opportunity, and 
we know we do not have to do it today.
    Ms. Tauscher. Thank you.
    Mr. Turner. But thank you for your leadership.
    Well, we have two very thoughtful and accomplished military 
leaders with us today, General Kehler, General O'Reilly. 
Welcome back. Thank you for appearing before the subcommittee. 
Thank you for your leadership. You are both experts in your 
field, and we thank you for your contributions to our national 
security.
    We have an unusual task before us today. In a single 
hearing, we must cover two broad areas, space and missile 
defense, that under normal circumstances could equally merit 
their own hearing.
    We also have an unusual budget request to consider this 
year. During last week's full committee hearing with the 
Secretary of Defense, we heard of profound changes in the 
budget that not only occurred outside the Quadrennial Defense 
Review (QDR) process, but were arrived at without what appears 
to be a commensurate level of rigorous analysis.
    As our full committee Ranking Member, Mr. McHugh, said, 
``the only unifying theme in this year's budget is that the 
aggregate fits within the top line.'' This appears to be an apt 
description of the missile defense budget this year.
    During our recent subcommittee hearing on the nuclear 
security budget request, we learned that major program 
decisions at the National Nuclear Security Administration 
(NNSA) would not be made until the completion of the Nuclear 
Posture Review (NPR). Yet, over in the Department of Defense 
(DOD), sweeping missile defense decisions have been made ahead 
of the QDR and prior to the Administration's completion of its 
missile defense policy and strategy review. By making such 
decisions now, is the Department prejudicing the outcome of 
these reviews?
    We just observed yesterday a determined Iran test of its 
200-kilometer, solid-fuel Sejil-2 ballistic missile that Iran's 
president suggested was linked to its ongoing nuclear program. 
There is a clear desire by some actors to emphasize the 
development of longer-range missiles. How good is our 
intelligence?
    We know short-range systems well. In many cases, they are 
based on decades-old technology. What concerns me, however, is 
our level of knowledge about rogue nations' longer-range 
systems. This detailed intelligence information is critical to 
having effective missile defenses. When such uncertainties 
exist, one usually compensates with increased margins and more 
diversification, not less.
    Given this growing threat, I am puzzled by the Department's 
decision to: stop deployment of ground-based interceptors (GBI) 
at 30 rather than 44, reduce the Ground-based Midcourse Defense 
(GMD) program by 35 percent, and curb its development. I have 
not seen any analysis or formal force structure requirements to 
justify this decision, nor have I seen any changes in the 
Intelligence Communities' (IC) threat assessment that would 
indicate a decreasing threat.
    Furthermore, what are we to make of the disconnect between 
Secretary Gates' testimony that the Department will, ``Continue 
to robustly fund research and development'' of GMD to improve 
its capability, and MDA's budget overview, which states, ``We 
intend to . . . curtail additional GMD development''?
    MDA's budget overview also calls for rigorous testing, 
which I agree with. But I do not see more GMD flight testing in 
fiscal year 2010. I hope today we can address these basic 
questions.
    We have also been induced to a new concept this year: 
Ascent Phase Intercept. It sounds promising, but it also sounds 
a lot like parts of boost and parts of midcourse. I would like 
a better understanding of what this entails. It would seem 
risky to move away from ABL, KEI, and MKV for this, as yet, 
unproven concept. General O'Reilly, I would ask you to address 
what gives you confidence that Ascent Phase Intercept is more 
technically feasible, effective, and affordable?
    During our last missile defense hearing, we reviewed an 
independent study on MDA's roles and missions requested by this 
committee. It recommended that MDA's mission should be 
refocused on research, development, test and evaluation 
(RDT&E), and that science and technology (S&T) should receive 
renewed emphasis and increased funding. However, I am hard-
pressed to find such emphasis in this year's budget. How does 
MDA advance our missile defense technologies and foster 
innovation and ingenuity when net reductions are made in future 
capabilities like ABL, KEI, MKV, and the Space Tracking and 
Surveillance System (STSS)? I am unconvinced that a $126 
million decrease in Special Programs adequately captures what 
we lose with the nearly $1 billion cut to future capabilities.
    There is one area in the budget where Congress did see 
rigorous analysis. In previous hearings, we noted a Joint Staff 
study which had recommended increasing the inventory of Aegis 
and THAAD interceptors. The budget request is responsive to 
these requirements, and I am pleased with that. However, the 
Joint Staff study only looked at these two systems. How do we 
know the force-structure requirements for other missile defense 
elements? Also, why does an increase in Aegis and THAAD have to 
come at the expense of GMD and European missile defense systems 
designed to protect the U.S. homeland and our allies?
    Looking across the $1.2 billion cut to MDA, I believe that 
we have been presented with a number of false, either-or 
choices. We can do better.
    In contrast, the budget request for space appears 
relatively balanced. Important acquisition programs, such as 
Advanced Extremely High Frequency (AEHF), Wideband Global 
Satellite (WGS), Global Positioning System (GPS), Space-Based 
Infrared System (SBIRS), and National Polar-orbiting 
Operational Environmental Satellite System (NPOESS) are 
provided with stable funding. The only substantial change is 
the TSAT termination.
    The Air Force decided instead to fund two more additional 
AEHF satellites and one WGS satellite, and acknowledged the 
importance of sustaining the industrial base. However, these 
three satellites are not a long-term solution to addressing the 
military's increasing communications requirements. Without 
insight into out-year plans and funding, I find it difficult to 
have confidence that the Air Force has adequately committed to, 
and budgeted for, these capabilities.
    The budget requests for Space Situational Awareness, SSA, 
has doubled. It appears a large portion of this increase is 
allocated to the Joint Space Operation Center (JSpOC).
    General Kehler, I would like to better understand the 
Department's effort to improve SSA, space protection, and our 
space intelligence capabilities. Additionally, can you discuss 
why Operationally Responsive Space (ORS) is on the Air Force 
Unfunded Priorities List (UPL)?
    Lastly, Air Force Space Command is in a state of 
transition. Can you discuss the status and challenges of 
divesting your nuclear mission and inheriting the cyber 
mission?
    On a final note, I would like to acknowledge the men and 
women serving in the organizations you lead. These are two 
worthy fields to have a career in, and we are proud of their 
service and accomplishments.
    Thank you, Madam Chair, for presiding over this important 
hearing. We look forward to the testimony of the witnesses.
    Ms. Tauscher. Thank you, Mr. Turner.
    We will begin with General Kehler.
    We have received your prepared statement in advance and it 
will be entered into the record. We welcome your remarks.
    General, the floor is yours.

STATEMENT OF GEN. C. ROBERT KEHLER, USAF, COMMANDER, AIR FORCE 
           SPACE COMMAND, U.S. DEPARTMENT OF DEFENSE

    General Kehler. Well, Madam Chairwoman and Representative 
Turner, distinguished members of the subcommittee, it is a real 
honor for me to appear before you today both as an Airman and 
as the Commander of Air Force Space Command.
    Thanks very much for your continued support, not only for 
the United States Air Force, but for the capabilities that we 
contribute to the Joint Force.
    I will certainly take the words that you have given us 
today about your appreciation for the service of the men and 
women of the military across the board, specifically Air Force 
Space Command. I will take that back.
    And Madam Chairwoman and the rest of the members of the 
subcommittee, I know you know this, but that resonates with 
them and they deeply appreciate that when they hear from the 
representatives of the American people, the appreciation of the 
American people. So thank you for those words, and I will 
definitely take those back.
    It is also a great pleasure for me to appear with the 
Director of the Missile Defense Agency. I am very proud to lead 
39,000 active duty Guard and Reserve Airmen, government 
civilians, and contractors who contribute to our Nation's 
strategic deterrence, and who deliver persistent, space-based 
capabilities to America and its warfighting commands around the 
globe.
    Our mission is to provide an integrated constellation of 
space and cyberspace capabilities at the speed of need. All 
over the world, as we sit here today, in space operations 
units, in space launch and range facilities, in missile alert 
facilities, in acquisition centers, and of course, in our 
forward-deployed locations around the world, the men and women 
of Air Force Space Command are proud and pleased to be 
answering their Nation's call.
    Our Airmen are focused on three main areas.
    First and foremost, we operate, secure, and maintain our 
Nation's land-based strategic deterrent, with perfection as the 
standard. Second, we assure access to space, protect our 
freedom of action in space, and provide joint warfighting 
capabilities from space. And, finally, we are improving 
cyberspace capabilities by establishing an operational 
Cyberspace Command, which will be designated 24th Air Force, to 
meet the demands of the 21st-century national security 
environment.
    Today's Soldiers, Sailors, Airmen, Marines, and Coast 
Guardsmen navigate with accuracy, communicate with certainty, 
strike with precision, and see the battlefield more clearly 
because of space-based capabilities.
    It is our job to put those capabilities directly into their 
hands, and we are constantly mindful of those joint team 
members who are in harm's way.
    We are very proud of our accomplishments. We have a long 
string of successful launches. We are exceeding performance 
standards in critical operations areas like GPS, satellite 
communications, weather support, and missile warning.
    But we are very much aware of where we need to improve: We 
need to get better at acquisition; we need to restore the 
nuclear enterprise; and, we need to deliver new capabilities to 
the joint team on time. We also understand clearly our 
important role across the spectrum of Joint Operations, from 
routine activities, to irregular warfare, to deterring major 
conflict with regional power.
    The demand for space capabilities is going up. At the same 
time, the threats and challenges in this operational domain are 
increasing. The fiscal year 2010 budget continues our progress 
in a number of key investment areas. You have pointed out some 
of those already.
    It continues our assured access to space. It helps improve 
our situational awareness, and our space protection. And it 
continues modernization of GPS, our satellite communications 
systems, missile warning, operational responsiveness, and other 
areas.
    If there is a thought that I could leave you with, it is 
this one: Make no mistake about it, the men and women of Air 
Force Space Command, and the men and women of the United States 
Air Force are in today's fight every minute of every day.
    We thank you for your past support. We look forward to 
continuing the discussions that we have been having over the 
last several months. And I stand ready to answer your 
questions; happy to take them on whenever you are ready, and I 
was diligent, I think, in taking notes, so I am ready to go 
whenever you are.
    Thanks for having us today.
    [The prepared statement of General Kehler can be found in 
the Appendix on page 45.]
    Ms. Tauscher. Thank you very much, General Kehler.
    General O'Reilly, we have received your prepared statement 
in advance and it has been entered into the record. We welcome 
your remarks.
    General O'Reilly, the floor is yours.

   STATEMENT OF LT. GEN. PATRICK J. O'REILLY, USA, DIRECTOR, 
       MISSILE DEFENSE AGENCY, U.S. DEPARTMENT OF DEFENSE

    General O'Reilly. Good afternoon, Madam Chairman, 
Congressman Turner, other distinguished members of the 
committee. It is an honor to testify before you today on the 
proposed fiscal year 2010 budget for the Department of 
Defense's missile defense program.
    During fiscal year 2008 and fiscal year 2009 to date, the 
Missile Defense Agency has achieved many accomplishments in the 
development of the Ballistic Missile Defense System (BMDS), 
including the execution of successful Standard Missile-3 (SM-3) 
Block IA, and Standard Missile-3 Block IV interceptor salvo 
flight test; the delivery of 28 additional SM-3 Block IA 
interceptors, including deliveries to Japan; a Ground-based 
Midcourse Defense intercept utilizing the entire sensor and 
command and control (C2) suite deployed in the Pacific in 
placement of two other ground-based interceptors and 
refurbishment of two other ground-based interceptors at Fort 
Greely, Alaska.
    Deployment of the----
    Ms. Tauscher. General O'Reilly, can you pull the mic a 
little closer to you please?
    Thank you.
    General O'Reilly. Deployment of an Army Navy/Transportable 
Radar Surveillance (AN/TPY-2) radar to Israel, the execution of 
an experiment involving the closest data collect to date of a 
boosting missile from a satellite, the safe destruction of a 
malfunctioning U.S. satellite, repeated demonstrations of the 
Atmospheric Laser Beam Compensation during the Airborne Laser 
flights, delivery of the first Terminal High Altitude Area 
Defense, or THAAD, unit for testing, three THAAD intercepts, 
including the launching of a salvo of two THAAD interceptors 
using the operational firing doctrine.
    Earlier this month, we also successfully placed in orbit 
the Space Tracking and Surveillance System Advanced Technology 
Risk Reduction (STSS ATRR) satellite to serve as a pathfinder 
for the next generation space-sensor technology.
    However, in addition to our successes, we also faced 
challenges developing the BMDS. During fiscal year 2008 and 
fiscal year 2009 to date, we experienced nine significant 
flight test delays, four target failures out of 18 target 
launches, and one interceptor failure in flight. These and 
other contributing factors have resulted in a $264 million cost 
growth and, further, we have incurred over $252 million in 
unplanned costs and 25 weeks of schedule revisions due to 
unplanned operational deployments of our systems under 
development.
    In response to those challenges, we have worked with our 
leadership and stakeholders to engage our management oversight, 
strengthen our relationship with the warfighting community, and 
improve BMDS acquisition and test planning.
    We have adopted a series of initiatives to improve 
acquisition and oversight of the contracts we will award over 
the next 18 months. I am also signing Memorandums of Agreement 
(MOA) with the Services to institutionalize the Missile Defense 
Agency and Service's roles and responsibilities for development 
and sustainment and fielding of the Ballistic Missile Defense 
System.
    In fiscal year 2010, we are proposing approximately $7.8 
billion for missile defense in response to Secretary Gates' 
guidance. As Secretary Gates announced on April 6th, this 
budget was the result of a holistic assessment of capabilities, 
requirements, and risk and needs.
    For the purpose of meeting the Secretary's vision to 
institutionalize and enhance our capabilities, to enhance the 
wars we are in today, and the scenarios we are most likely to 
face in the years ahead, while at the same time providing a 
hedge against other risks and contingencies.
    The Secretary further said we will restructure the program 
to focus on rogue-state and theater-missile threats.
    Today, there are 5,900 ballistic missiles and hundreds of 
launchers in countries other than the North Atlantic Treaty 
Organization (NATO), China, Russia, or the U.S.; 93 percent, or 
5,500 of those missiles, are short-range ballistic missiles, 
with ranges less than 1,000 kilometers.
    Six percent, or 350, are medium-range ballistic missiles 
with ranges between 1,000 to 2,000 kilometers. And less than 
one percent are Intermediate, or Intercontinental Ballistic 
Missiles, or ICBMs.
    Both Iran and North Korea are showing significant progress 
in developing ICBM technology, but their number of launch 
complexes which exist limits the number of missiles they can 
simultaneously launch.
    I assess the technical risk is low that 30 fully 
operational ground-based interceptors, or GBIs, and silos is a 
sufficient number to counter the simultaneously launched rogue-
nation ICBMs over the next decade. Additionally, indications 
are early and prominent if the number of rogue-nation ICBM 
launch complexes increases.
    Although we are proposing to limit the number of GBIs and 
silos to 30, we are storing additional silos, and we are 
continuing the production of the remaining 14 GBIs on contract 
to maintain the ability to produce additional GBIs for testing, 
refurbishment, future upgrades, and to allow programmatic 
flexibility to respond to the Quadrennial Defense Review, the 
congressionally mandated Ballistic Missile Defense Review, and 
other policy direction.
    In contrast to our rogue-nation ICBM defense, I assess the 
technical risk is considerably higher that the previously 
planned inventory of theater missile defense interceptors and 
units can be overwhelmed by the large number of short- and 
medium-range ballistic missiles today.
    Thus, to better protect our forces, allies, and friends 
from short and medium ballistic missile attack, we propose to 
add $700 million to field more Theater High Altitude Area 
Defense and Standard Missile-3 interceptors. We also propose to 
add $200 million over three years to fund the conversion of six 
additional Aegis ships to ballistic missile defense 
capabilities.
    Furthermore, as a hedge against further advanced threats, 
we propose $368 million to leverage our emerging missile 
defense force structure and accelerate the development of 
capability to destroy missiles at all ranges in the highly 
advantageous early phases of flight.
    To more effectively hedge against future threats, we 
propose to cancel the second Airborne Laser, or ABL, prototype 
aircraft, terminate the Multiple Kill Vehicle, or MKV, and 
Kinetic Interceptor, or KEI, programs in lieu of more 
operationally efficient, alternative technology architectures.
    We will continue the research and development effort with 
the existing ABL aircraft, including the first attempted shoot-
down of a ballistic missile this fall, to address affordability 
and technology issues while addressing the program's proposed 
operational role.
    The MKV technology program was established to address 
complex countermeasures by identifying to destroying all lethal 
objects in a cluster using a single interceptor. The MKV was in 
the early stages of a long development process extending until 
2018, and required significant research and development and 
very immature technology.
    We plan to transfer the knowledge gained from MKV to our 
kill vehicle technology base. As stated previously, destroying 
missiles earlier in flight before countermeasures can be 
deployed is the better hedge against advance future threats 
than trying to kill all the countermeasures after they have 
been deployed.
    The original KEI mission grew from a boost-phase-only 
mission to a boost and midcourse mission. The development 
schedule grew from 5.5 years to 12-14 years, depending on the 
spirals. Program costs grew from $4.6 billion to $8.9 billion, 
and the missile average unit production cost grew from $25 
million to over $50 million per interceptor.
    Technology issues delayed the first booster flight test 
date by over a year, and we assess the probability of this 
flight test occurring this year as very unlikely.
    Additionally, KEI size limits its ability to be 
operationally deployed without dramatic changes to our military 
infrastructure and significant reduction of our firepower. 
Affordability and government requirements growth, not 
contractor performance, was the main contributor to KEI's 
execution problems.
    Given the above facts, and only 15 percent of the $8.9 
billion worth of contract until 2018 had been accomplished, the 
Secretary of Defense terminated the KEI program. Recently, KEI 
contractors indicated they can complete their flight tests by 
the end of September 2009, in a manner that accommodates our 
legal liabilities for program termination. I will assess their 
proposal.
    Like MKV, we will review the KEI products and expertise 
developed to date to determine follow-on applications to 
Ascent-Phase Intercept mission. The Missile Defense Agency, 
Joint Staff, combatant commanders, armed services have 
intensified their collaboration on the development of the 
missile defense capabilities and budgets.
    As announced by Secretary Gates in response to the 
warfighters' priorities, we are making ballistic missile 
defense more affordable and effective by: one, reshaping our 
program to enhance protection of our deployed forces, allies, 
and friends against existing threats; two, continue to develop 
and maintain the Ground-based Midcourse Defense capability to 
defeat a limited, long-range, rogue-state attack or accidental 
launch against the United States; and three, prepare to 
leverage emerging Ascent-Phase Intercept technologies to hedge 
against the threat growth and realize the greatest potential 
for reducing cost and increasing operational effectiveness of 
missile defense.
    The rationale is based, in part, on a Defense Science Board 
(DSB) study in 2002 which emphasized the benefit of Ascent-
Phase Intercepts. The study noted that the technological and 
operational challenges of intercepting threat missiles in the 
ascent phase, the phase after powered flight and prior to 
apogee, is significantly less challenging than boost phase.
    Ascent-Phase Intercept would allow us to intercept early in 
the battle space and optimize our ability to execute a shoot-
look-shoot tactic and defeat the threat before countermeasures 
are deployed, minimal potential impact of debris, and reducing 
the number of interceptors required to defeat a raid of threat 
missiles.
    With this budget, we will also continue to execute to the 
fullest extent of the law, the upper-tier European capability 
program to counter long-range attacks from Iran. We will 
execute a rigorous test program to build the confidence of the 
U.S. and allied stakeholders in the BMDS, bolster deterrence 
against their use, and send a powerful message to potential 
adversaries looking to acquire ballistic missiles; thus, 
testing figures prominently in our proposed budget of fiscal 
year 2010.
    Furthermore, we are collaborating with the service 
Operational Test Agencies (OTAs) and the support of the 
Director of Operational Test and Evaluation (DOT&E) to 
restructure our test program, to improve confidence in the 
missile defense capabilities under development, and ensure the 
capabilities transferred to the warfighter are operationally 
effective, suitable, and survivable.
    In conclusion, the proposed fiscal year 2010 budget 
rebalances the development of our missile defenses to improve 
our ability to meet the threats we face today and provide a 
cost- and operationally-effective hedge against future 
ballistic missile threats facing our deployed forces, allies, 
friends, and our homeland.
    I greatly appreciate your support for the opportunity to 
testify today. I request that I submit the remainder of the 
statement in writing for the record, and I look forward to 
answering your questions.
    And, ma'am, and, sir, I greatly appreciate, also, your 
compliments to our workforce that works tirelessly to deliver 
this capability.
    Thank you.
    [The prepared statement of General O'Reilly can be found in 
the Appendix on page 63.]
    Ms. Tauscher. Thank you very much, General O'Reilly.
    General Kehler, I am going to begin the questioning with my 
first question.
    As you know, the National Polar-orbiting Operational 
Environmental Satellite System, or NPOESS, program has 
experienced serious schedule and cost problems. The estimated 
launch date for the first satellite has slipped by over three 
years to 2014 and the total program cost has grown from $6.5 to 
$13.5 billion. And according to what our staff is hearing, the 
tri-agency acquisition arrangement between DOD, NASA, and the 
National Oceanic and Atmospheric Administration (NOAA) is 
largely dysfunctional.
    What are your thoughts about how the Nation should proceed 
in the acquisition of new weather satellites?
    General Kehler. Thanks, Madam Chairwoman.
    First of all, the requirement to provide weather data, both 
of the Earth and the Earth's atmosphere, and of the space 
environment every day, from a combatant commander perspective, 
remains very high. Very important for our troops to understand 
the weather for all the obvious reasons. Very important for our 
Airmen to understand the weather, our Sailors, and the list 
goes on.
    We, right now, have three military weather satellites left 
on the ground. One will launch later this year, and that leaves 
us with two. And we are managing the timeframe of launching 
those two remaining satellites that we have already constructed 
so that we can hedge our bet, basically, here about what might 
happen with NPOESS.
    In terms of the NPOESS program itself, we are not happy 
either. I think that all of us understand there have been some 
significant issues here. There have been issues with the 
construction of the sensors. In some cases, we are stretching 
in terms of the technology. In other cases, we are stretching--
or the program was stretching, anyway, in terms of the number 
of sensors we were trying to integrate on the same platform, et 
cetera.
    A number of studies have been done about what to do. There 
is one going on now that is about to out-brief within the next 
week or so. I understand they have made some recommendations. I 
have not seen those. We are looking forward to getting that and 
see what their recommendations are, both in terms of program 
content and, as importantly, in terms of program management.
    So I cannot give you a better answer today, Madam 
Chairwoman, than we are waiting to see what this latest review 
tells us. I know some have seen pieces of it. I have not. We 
are looking forward to that. And when we do, I think it is 
important for us to come back and explain to you what we think 
the right way forward is.
    Ms. Tauscher. Do you think that you will see that review 
before the mark-up of the bill on June 11th?
    General Kehler. I have heard one answer that says that they 
are ready to report their results as early as next week. So, I 
would hope that we would have information before you mark.
    Ms. Tauscher. Well, I will direct the staff. We are going 
to be back in our districts next week for the Memorial Day 
recess, but we come back on June 2nd. So as soon as you come 
back, if you have been briefed and you can brief us, we will 
gather the subcommittee and try to accomplish that as soon as 
we can.
    General Kehler. Yes, ma'am.
    And it is a actually, it is a larger group that you 
probably need to invite than just me because there are others 
with equities in this decision as well.
    Ms. Tauscher. We will do that.
    General Kehler. But we would be happy to come.
    Ms. Tauscher. I have a second question.
    Recently, the Government Accountability Office (GAO) found 
that the Air Force is struggling to build the GPS IIF 
satellites within cost and scheduled goals. I actually was 
watching one of the cable shows this morning, and they had this 
whole big thing about, you know, GPS and, you know, are you 
going to be able to turn on your GPS and get from where you are 
supposed to go. So I think this has hit the major media.
    The program has overrun its original cost estimate by about 
$870 million and its launch of its first satellite has been 
delayed to later this year, probably November of 2009, almost 
three years late. GAO has also raised questions about the Air 
Force estimate for the GPS IIIA schedule and the possibility 
that delays could result in a gap in the GPS constellation in 
the future.
    Would you describe the current health of the GPS 
constellation, the status of both GPS IIF and IIIA, acquisition 
programs, and the prospect that we might experience a gap in 
the GPS signal sometime in the future?
    General Kehler. Well, let me answer the final question 
first.
    I am highly confident that we will be able to sustain at 
least, and I believe more than, the minimum 24 satellite 
constellation as far as we can see. I am highly confident that 
we can sustain more than 24 satellites.
    Let me start with that. Now, let me backtrack.
    GPS is critically important, not just to the U.S. military, 
not just to the citizens of America--by the way, the taxpayers 
who pay for it and offer it free of charge to the rest of the 
world--but it is important to the entire world. We are 
responsible for it, and we take that responsibility very, very 
seriously.
    Right now, on orbit, we have the largest and most capable 
constellation we have ever had. We have 30 active satellites. 
We have another one that we have launched that is still in 
checkout. Some new signals are being checked out. And we have 
three additional that are not right now an active part of the 
constellation but are available.
    We understand the issues that the GAO has raised. In some 
cases, you know, we are not taking exception to them. I would 
take some exception to the fact that I think some of what is 
being reported is old news. We have been working on these 
problems for quite some time.
    We understand what the issues are. We are about to launch 
the first of the GPS IIF satellites. That will occur late this 
year. We have other launches that have to go in sequence, and 
so I cannot give you a specific such-and-such a date. We have 
got issues there that we are trying to work through. But that 
is not bad news. That is actually good news.
    The GPS III program, at this point, is proceeding very 
well. It is still in development of course. But because of the 
problems that we had with IIF, we have taken more time, in some 
cases, deliberately, to get IIF right before it goes to orbit. 
And then we said we would buy a finite number of those and get 
on with GPS III, which has been a program we have started with 
all of the acquisition reform features built in from the start. 
So I have a lot of confidence in GPS III. I am also confident 
in the ground system that we have put together.
    Why the reporting is going on today, it is because it is 
based on a very, very conservative analysis that is done for 
planning purposes. That conservative analysis suggests that we 
might have a problem here. But what that does not take into 
account is the real steps that we take to manage the 
constellation through times like this.
    Those steps, when we take those steps, and when we get to 
the next launches, give me the confidence that would say we are 
going to be able to sustain more than 24 satellites on orbit. 
And all the indicators that we have with the on-orbit 
constellation supports what I am telling you here. When you 
take those measures into account, those real steps that we take 
to prolong the life of the satellites that are on orbit, when 
you factor those into the same analysis, it does not show the 
same kind of problem.
    So, I have high confidence--let me say this again--I have 
high confidence that we are going to be able to sustain greater 
than 24 satellites as we continue to upgrade GPS. We are 
committed to retaining that as the gold standard for the world, 
and we have a commitment to do that, and we understand what our 
commitment is.
    Ms. Tauscher. General, the reason you say 24 is because?
    General Kehler. That is the minimum requirement to give 
high-accuracy signals. And, again, as I say, today there are 30 
active in the constellation, and we expect to be able to 
sustain 24--greater than 24 is what my projection would be. I 
just cannot tell you how many.
    Ms. Tauscher. I hope your statement today goes a long way 
to giving confidence to people that rely on GPS for many 
different reasons.
    I have questions, more questions for you, General Kehler. 
And I certainly have some questions for General O'Reilly, but I 
want to give my distinguished colleague, the ranking member 
from Ohio, Mr. Turner, a chance to ask some questions.
    So, I am happy to yield to you, Mr. Turner.
    Mr. Turner. Thank you, Madam Chairman.
    General O'Reilly, you have a tough message. And many 
people, in looking at your budget recommendations, are very 
concerned because they do not see that the world has changed 
much in the past couple months, or that the analysis at DOD has 
been completed in the past couple months that would justify a 
significant change in policy that you are bringing in front of 
us.
    And I wanted to ask you a couple questions about that. Many 
times when we are faced with issues of guiding a program, you 
complete a strategy and then you undertake a budget.
    As our Ranking Member McHugh said, it looks as if this is a 
budget that its only common theme is it fits under the top 
line, and that you have a budget and under which we are 
constructing strategy. And that is of a great deal of concern 
when the issue of missile defense is so important and goes 
right to the issue of our national security.
    Every day in the news, the public is more and more aware of 
what the actors of rogue nations and other nations are doing to 
be able to get greater reach and greater precision, greater 
ability to impact the United States and our allies.
    And as you look at the capabilities that we have 
accomplished, that your agency has worked so diligently, and 
others, to accomplish, it seems as if we are retreating. You 
and I have had conversations about my concern about the issues 
of innovation in that, you know, when we are advancing in 
technical areas and then we step away from funding, either 
research or development, we are losing the concept of what is 
the next generation of innovation that could be in front of us.
    So many people have questions about how these budget 
decisions are being made and why and whether or not this is 
prudent. The Department appears to be making profound missile 
defense program and budget decisions prior to the 
Administration's completion of its missile defense policy and 
strategy review.
    We do not, as a committee, seem to have any information in 
front of us that would justify the switches that are occurring 
in each of the programs. One such switch is the issue of a 
switch from long-range missiles focus, and we do not have 
intelligence or information here that would indicate that 
people are not trying to get greater reach to impact our 
country.
    I have several questions that I want to ask you about 
specific programs that I know that members on this side of the 
aisle have specific questions about them, but could you talk 
for us a moment about the issue of how this budget is put 
together. Because although you have answers as to, you know, 
comparatives; why one program over another. It appears that an 
overall strategy is missing as to why we are undertaking the 
cuts of programs that before, just a few months ago, appeared 
to be pretty important.
    General O'Reilly. Thank you, sir.
    First of all, this budget proposal reflects a process that 
has been developed over the last several years that I believe 
the most profound impact on the budget was the participatory 
problem--or participatory involvement of senior decision 
makers, and especially the combatant commanders, the Joint 
Chiefs, and the Services, in order to have the strategy that 
you refer to today and those analyses, versus the strategy 
before was based primarily on technical judgments by the 
Missile Defense Agency without the greater involvement.
    So, number one, I do not believe it is so much of a 
strategy change, as a process change. This process has now come 
to fruition. There was more involvement by Combatant Command 
(COCOM) commanders and the warfighters than I have seen before. 
There also was more intense involvement by senior Office of the 
Secretary of Defense (OSD) leadership and the analysts that 
work to support them than has been in the past.
    So, this is a process that was started several years ago, 
and I believe this is the first budget which was produced from 
that process as the Missile Defense Executive Board (MDEB), 
chaired by the Under Secretary of Defense for Acquisition, 
Technology and Logistics, chaired that board with the full 
participation of the Under Secretary of Defense for Policy, and 
the Director of Operational Test and Evaluation, the Service 
Chiefs, the Joint Chiefs, were very involved in this. This was 
not an isolated decision. In fact, it was the most 
comprehensive that I have ever seen in the missile defense 
area.
    Again, the two aspects: number one is the programs we are 
referring to are aimed at 1 percent of the threat, whereas we 
are very concerned also about the other 99 percent of the 
threat that we--you are exactly right, sir--we are concerned 
about the research and development that is going in to counter 
that more deployed, more advanced threat, as far as a threat to 
our deployed forces today.
    This is not done at the expense of the long-range threat. 
The reduction of the missile silos actually employs a process, 
then, that allows them to be more operationally ready than they 
are today. So, we believe this actually enhances that 
capability by focusing on those 30 and building of 
refurbishment process, and so forth, for the missiles that did 
not exist before.
    But, primarily, sir, I must say that, yes, the Secretary of 
Defense did give us clear guidance to focus on the rogue threat 
and the theater threats, but at the same time, there was 
involvement that I had not seen before by senior warfighting 
commanders, and they set the priorities in which I was 
responding to.
    And then it was approved up through the Secretary.
    Mr. Turner. And I have a series of questions regarding the 
change from 44 GBIs to 30 GBIs.
    General O'Reilly, do you believe that Mr. Altwegg, your 
executive director, as he does, that, I believe this is his 
statement, ``the risk may go up,'' by stopping GBI deployment 
at 30 interceptors.
    So, although you say an analysis has been done, I think, 
you know, the committee members were a little concerned as to 
how exactly the process was undertaken to go from 45 to 30. I 
do not think we have from you the analysis that would justify 
or explain that. And, as I think you are aware, Mr. Altwegg, in 
a May 7th press conference on the budget, commented that the 
``risk may go up somewhat, but our intelligence data and the 
threat at the present time permits us to restrict the number of 
emplaced missiles to 30.''
    I am not familiar with that information. Could you comment 
on his statement?
    General O'Reilly. Yes, sir.
    As the new Director of the Missile Defense Agency, I asked 
for exactly what you are asking for: the analysis to show 44. 
Why was there 44 missiles? I have yet to see that yet.
    We have looked at projections from 2002 of what the threat 
would be today. Those were off by a factor of 10 to 20 in that 
regard. So, that also underscored, with the warfighter input, 
senior combatant commanders, also the lack of an analysis, as 
you are saying for the 44, put us into a position where there 
was an operational risk assessment done.
    And the operational risk assessment was deemed to be low 
for the fact that how many simultaneous missiles this system 
would have to engage at any one time now or over the next 
decade, and what would be the intelligence indicators to say 
that there was a surprise growth due to the fact that it takes 
so long to build one of these launch complexes due to the fact 
that there was not a strategy that I had presented, and my 
agency knows of about, again we believe it was a judgment in 
the past done on a threat.
    But the analysis we have done until now and the assumptions 
in which that original judgment was made on, was off by a 
factor of about 10 to 20.
    Mr. Turner. And saying that the 44 was arbitrary, I am not 
quite confident that the 30 is--that the reduction that you 
have chosen is not arbitrary also. I look forward to you 
providing to the committee what other information that you have 
that would justify the 44 to 30.
    I understand your position that the 44 was arbitrary. But, 
again, we are seeing increasing threats in this area, not 
decreasing, and yet we are seeing decreasing investment.
    On May 13th, the Secretary of Defense testified that, ``We 
will continue to robustly fund research and development to 
improve GMD.'' And on page 10 of the DOD budget overview for 
MDA, it clearly states, ``We intend to curtail additional GMD 
development.''
    How should we interpret these two statements that appear to 
be a disconnect? Please--I mean, describe for us any robust R&D 
efforts for GMD that are going to be continued in this budget 
request.
    General O'Reilly. Sir, the reference in the overview was in 
the area of the ground system, of curtailing the development or 
the deployment of the ground system.
    However, at the same time, we are expanding the research 
and development, as I said, for the entire architecture which 
the GMD system benefits. One of the benefits of Ascent-Phase 
Intercept is if you are going to strengthen that, GMD 
automatically benefits from having early sensors, robust 
command and control, robust communications and secure, which is 
necessary.
    Besides that, we also have funded a refurbishment program 
to take the oldest interceptors out, replace them with new 
ones, also to upgrade those interceptors with technical risks 
that we found in the original deployment.
    That will be done over the entire fleet over a period of 
time. We also are expanding the test program, which is part of 
the development, and we are continuing to expand the command 
and control and the algorithms necessary to meet the 
warfighters' requirements for better command and control of the 
system during an attack, and also to plan for it.
    We have others that I can provide for the record of efforts 
that we are continuing on in GMD. But I did not mean to convey 
that, in fact, the 30 missiles that we believe is sufficient 
for silos is going to halt the development of the ground-based 
interceptors.
    In fact, we will continue on with the two-stage interceptor 
development, which again brings a new fresh of avionics to the 
GBIs and also their industrial base.
    [The information referred to can be found in the Appendix 
on page 119.]
    Mr. Turner. One that continues to be a concern on support 
for the European missile defense. The budget request includes 
only $51 million for a European capability. Does this low 
funding level indicate a change of the Administration's 
position, or lack of support, for a European missile defense?
    General O'Reilly. Sir, the Quadrennial Defense Review I 
know is going to address that. But in the meantime, the logic 
behind the fiscal year 2010 budget was that I have significant 
restrictions based on the law, the Appropriation, and the 
Authorization Act of last year, on how much I can spend for the 
construction and the development of the missile systems 
proposed in Europe and the European Midcourse Radar (EMR).
    Due to those restrictions, primarily the need for 
ratification of the Ballistic Missile Defense Agreement in the 
Czech Republic and Poland, the $51 million was the most we 
could see that we could expend this year with those 
restrictions still on us.
    And then there was a second one associated with the 
production of further GBIs for the European midcourse--or the 
European capability that is limited by the number of flight 
tests we have to occur first for a two-stage GBI, which we are 
proceeding with.
    But in sum, sir, the limitations from last year's laws is 
the reason why we are limited to $51 million.
    Mr. Turner. So, then, should I interpret your answer to 
mean that there is still sufficient, significant support from 
the Administration for the European missile defense system 
(EMDS)?
    General O'Reilly. Yes, sir.
    The instructions to me was to continue with that 
deployment, that planning, to the greatest extent possible 
allowable by law, which equated to the $51 million for the 
development of the sites and the planning, and also we are 
continuing the development of the two-stage GBI.
    Mr. Turner. Thank you, Madam Chair.
    Ms. Tauscher. Thank you, Mr. Turner.
    I am going to recognize members for five minutes by their 
appearance before the gavel.
    And first we have Mr. Andrews of New Jersey for five 
minutes.
    Mr. Andrews. Thank you, Madam Chairwoman.
    Thank you, General, Lieutenant General, for your service 
and for excellent testimony today.
    I do not think either of you have made a major change in 
your assessment of the threat that the country faces. I do 
think you have made a major change in the way we assess the 
evidence in these programs, frankly, switching from a faith-
based approach to these programs to an evidence-based approach, 
which we agree with.
    In looking at the budget sent over, it is interesting, if 
you look at some zeroed-out and significantly-cut programs, BMD 
intercept, Multiple Kill Vehicle, the three European programs, 
they are reduced by a little over $1.1 billion. And then if you 
look at what has increased, procurement of THAAD, Aegis RDT&E, 
Aegis procurement, and Command, Control, Battle Management and 
Communications (C2BMC), they are increased by almost $1.1 
billion. So, there was a balance between those two approaches.
    And I do think that the evidence supports the balance that 
you have struck. And, Lieutenant General O'Reilly, obviously it 
was more directed at you, although I think the same is true in 
the space-based programs, I wanted to ask you a little bit 
about the evidence of the Multiple Kill Vehicle.
    My understanding is that the emphasis on the mission has 
changed rather substantially when our strategy is what the 
multiple kill would have done. On page 25, you say we are--
instead of the initial purpose of the MKV to integrate into 
midcourse interceptors, we are now assessing the feasibility of 
destroying threat missiles early in flight before 
countermeasures can be deployed, as a hedge against advanced, 
future threats.
    Is it fair to say that, you know, that the old rationale 
for the Multiple Kill Vehicle does not fit the new strategy?
    General O'Reilly. Sir, the mission of the Multiple Kill 
Vehicle, if we are successful with what we are trying to do 
with this proposed budget, we would not need that mission.
    Mr. Andrews. And it is also true on schedule, is it not, 
that the initial schedule for the MKV was 5.5 years. It has now 
grown to somewhere between 12 and 14 years? Is that right?
    General O'Reilly. Sir, that is the Kinetic Interceptor 
Program.
    Mr. Andrews. Okay.
    General O'Reilly. But the MKV program, sir, was on a 2018 
timeframe.
    Mr. Andrews. Where is it now?
    General O'Reilly. Well, that is----
    [Laughter.]
    It is in the very beginning of the program, so that is 
why----
    Mr. Andrews. Right.
    And am I correct that the cost has, according to what I 
have read, gone from $4.6 billion to $8.9 billion?
    General O'Reilly. Again, sir, that is the Kinetic 
Interceptor Program, yes, sir.
    Mr. Andrews. Right.
    And the first booster flight test was due in what year?
    General O'Reilly. Sir, we re-baselined the program in 2007 
for the first booster test last year. It had technical----
    Mr. Andrews. Did it happen last year?
    General O'Reilly. No, sir. They have had technical 
problems----
    Mr. Andrews. Did you think it is going to happen this year?
    General O'Reilly. No, sir. I do not believe it is going to 
happen this fiscal year. Our schedule assessment was----
    Mr. Andrews. I understand there is some issue about 
September of 2009 possibly happening.
    I want to compare that to the judgment you have made about 
THAAD and Aegis. I note that THAAD procurement is up by $316 
million. Aegis RTD&E is up by $578 million. Procurement for 
Aegis is up by $112 million.
    It was my understanding that the THAAD tests basically 
batted six-for-six. Is that right?
    General O'Reilly. Yes, sir.
    Mr. Andrews. And it is also my understanding that the 
system has proved so effective there is already a foreign sales 
component with the United Arab Emirates (UAE). Could you tell 
us a little bit about that?
    General O'Reilly. Yes, sir.
    They have made a request for several billion in investment 
of, and procurement of THAAD.
    Mr. Andrews. My understanding is, from your testimony, is 
that $6.9 billion is, at least the potential for that?
    General O'Reilly. Million, sir, or billion?
    Mr. Andrews. Yes.
    General O'Reilly. I know it is well over $5 billion, sir.
    Mr. Andrews. Right.
    And Aegis also has a similar record on successful testing. 
Could you tell us a little bit about that?
    General O'Reilly. Yes, sir.
    Well, THAAD has had six-for-six, as you said, sir, but what 
is also important is five of those intercepts were against 
actual threat targets.
    Mr. Andrews. Right.
    General O'Reilly. In the case of Aegis, they have had a 
successful string of--out of nine intercept attempts, they have 
had seven intercepts, but one of them, the missile did not 
launch because there was a command and control issue of the 
configuration by the soldiers.
    But for the ones they attempt--they launched, it was eight-
for-seven.
    Mr. Andrews. Within the constraints of the fact that we are 
in a public setting, within those constraints, is it a fair 
conclusion that each of those two systems I just mentioned, 
properly positioned, would have a high degree of probability of 
success against the rogue missile threats that you assess exist 
today?
    General O'Reilly. Sir, against the vast majority, the 99 
percent I was referring to, yes. Against the longest-range 
ones, ICBMs, the way we are configured today, no, but that is 
what we are proceeding with on the Ascent-Phase Intercept, to 
give them that capability so they could handle missiles of all 
ranges.
    Mr. Andrews. Thank you.
    My time has expired. Thank you very much.
    Ms. Tauscher. Thank you, Mr. Andrews.
    I am happy to yield to the gentleman from Colorado, Mr. 
Lamborn, five minutes.
    Mr. Lamborn. Madam Chairman, before we start the questions, 
I have to make an unfortunate announcement.
    Yesterday, the first female Air Force Academy graduate to 
die in combat was killed by an improvised explosive device 
(IED) near Kabul, Afghanistan. So, I would ask, if you could, 
ask for a moment of silence.
    Ms. Tauscher. I think that is appropriate.
    The committee will have a moment of silence in honor of the 
lost Airman.
    Mr. Lamborn. Lieutenant Roslyn Schulte.
    [Moment of silence.]
    Ms. Tauscher. Mr. Lamborn.
    Mr. Lamborn. Okay. Thank you.
    General O'Reilly, here is a question about KEI. I am 
concerned with the decision announced on May 7th to cancel KEI, 
kinetic energy interceptor, in fiscal year 2010, followed by 
the Missile Defense Agency issuing a stop-work order on the 
program.
    Likewise, it is troubling that these decisions to 
immediately halt the program and disallow the rest of the 2009 
funding, which had been approved and directed by Congress, was 
made without a chance for congressional review.
    But would you still consider proceeding with the planned 
KEI missile test this fall in as much as the engine set has 
been built and already delivered to the test site. Over $1 
billion in taxpayer funds have already been invested in the 
program, and the completion of such a test would likely yield 
important scientific data that could prove useful in future 
missile defense R&D efforts.
    General O'Reilly. Sir, first of all, the motivation for the 
stop-work was we have a legal liability for termination of over 
$39 million. Since no money was proposed for fiscal year 2010, 
I have got a responsibility to ensure that I can have enough 
funding in fiscal year 2009 to cover the termination agreements 
I have with Northrop Grumman and the other companies involved.
    So, that was first of all. I have to protect that. And that 
was not sufficient, under the existing plan proposed by the 
company, in order to also pay for the flight test.
    Second of all, there was three tests that were required, as 
the contractor proposed prior to the flight test, again, they 
have had technical difficulties with components and so forth. 
The program--the original schedule proposed a year--two years 
ago, they are a year behind in that. And when we looked at the 
remaining activities they have, including the additional ground 
testing, we did not see that it was feasible. Our estimate was 
it would be done, at earliest, if everything was successful, 
would be December.
    But, I have modified the stop-work order and asked the 
company to propose to me so we can evaluate, is there a 
proposed way in which they believe they could execute the test 
in the timeframe, within the funding, and still cover the legal 
liabilities that I have.
    Also, I have asked in the stop-work order to have a 
thorough review of the program. A lot of the technologies 
developed in KEI are directly applicable to what we are 
referring to in the ascent phase.
    So, we want to ensure we leverage that technology and 
expertise and the follow-on work that then would benefit not 
just KEI, but all the missile systems we are deploying.
    Mr. Lamborn. Okay. Thank you.
    What are the Department of Defense's plans for Ground-based 
Missile Defense, and why should Congress have any confidence 
that MDA can support ``robust R&D,'' as the Secretary of 
Defense has talked about, to improved Ground-based Missile 
Defense, including plans for testing years into the future, 
when budget priorities may shift money away from Ground-based 
Missile Defense in the future?
    General O'Reilly. Sir, the limitation we are proposing on 
GBI is the 30 silos, because it was related to the rate at 
which we need to launch interceptors and the number of 
interceptors we need to put in the air to counter any rogue-
nation threats that are in the air at the same time.
    However, it is dependent on an extensive architecture, the 
GBI program. In all of those other areas, we are upgrading 
those programs and they will be feeding better discrimination 
data, command and control data, and so forth, for the 
interceptors.
    We designed the missile so the basic missile itself had a 
large capacity for new software. We can upload that software in 
the missiles in the silos. It was done as forethought ahead of 
time.
    So, we will continue the lab work of our testing, the 
command and control work, the development of the additional 
nodes that tie into the GMD system, and, for example, our 
forward-based radars and our Sea-Based X-Band (SBX) radar.
    All of those upgrades also directly feed to the GBI's 
capability of killing a target.
    Mr. Lamborn. Okay.
    And, lastly, in light of the $1.2 billion decrease in MDA 
funding, can you identify any underfunded programs that would 
strengthen missile defense if you had additional dollars and 
would put them next in the list of priorities?
    General O'Reilly. Sir, the part of the missile defense 
architecture that we can benefit the most from is our ability 
to see threats as early as possible and get an accurate track. 
So, we are launching two satellites in August on a Delta IV out 
of Cape Canaveral, and we are planning on utilizing them in 
future intercept tests over the next couple of years.
    What we need is a constellation--or would be a significant 
benefit to the missile defense architecture, if we had a 
constellation that provided persistent surveillance and cold-
body tracking of cold bodies after they have boosted.
    That is one area. Another area is the development of 
airborne sensors; and we are working very closely with the 
Predator office and unmanned aerial vehicles (UAVs) looking at 
how can we exploit that capability in order to, again, get 
early surveillance.
    The interceptor would give us some improvement, but early 
surveillance and persistent surveillance would give us the 
greatest leverage.
    Mr. Lamborn. Thank you.
    Ms. Tauscher. Thank you, Mr. Lamborn.
    I am happy to yield five minutes to the gentleman from New 
Mexico, Mr. Heinrich.
    Mr. Heinrich. Thank you, Madam Chair.
    General Kehler, General O'Reilly, I want to thank you for 
joining us today. I want to address my first question to 
General Kehler.
    General, as you know, Operationally Responsive Space's 
headquarters is in my district in Albuquerque, as well as the 
Space Development and Test Wing. And I was very pleased to hear 
of the successful launch of the Tactical Satellite-3 (TacSat-3) 
on Tuesday night, and I certainly congratulate you, Director 
Wegner, and all those involved with that launch, on that 
successful launch.
    Earlier this week, the Air Force released its Unfunded 
Priority List, which listed ORS as number 3 out of 20. And I 
wanted to ask you if you could explain, specifically, what you 
think could be accomplished by funding this priority?
    General Kehler. Yes, sir.
    We are delighted, as well, with the successful launch of 
TacSat-3. It was another step in what we believe is a very 
promising way forward for smaller satellites with highly 
capable payloads that will be useful for the warfighters.
    What we are doing, now that we have launched TacSat-3, we 
are already on to the construction of the next ORS-like vehicle 
called ORS Satellite Number 1, ORS Sat-1. And the difference 
is, the TacSat series has been developmental, if you will.
    ORS-1 is actually now taking a need from one of the 
combatant commanders and trying to apply operationally 
responsive principles to assembling and launching that. We have 
given ourselves a fixed time to do that in. We have given 
ourselves a fixed budget to do that in. But we have also given 
ourselves some off-ramps where we can make decisions.
    Part of that Unfunded Requirement would be the next 
increment, if we get to the right decision point, and then 
decide to go forward with this ORS Satellite Number 1, that we 
can actually make it within the kinds of parameters, very 
aggressive parameters, that we have set up.
    And then assuming that is right, the next piece is for the 
second of those satellites, which would complete the combatant 
commanders needs in a certain orbit. You cannot cover 
everything they need covered with one satellite. I know you 
know that. But, we would need to put a second one on orbit. 
That is what this does. It completes the first one, goes to the 
second one.
    Mr. Heinrich. I actually think you probably answered my 
second question, which related to consulting our combatant 
commanders in terms of what might be included on that ORS Sat-
1.
    General Kehler. Yes, sir.
    In fact, this is answering, specifically, a need from 
Central Command (CENTCOM). They have identified, among a number 
of intelligence, surveillance, and reconnaissance (ISR), 
shortfalls that they have that we are addressing; for example, 
even bigger picture in the Air Force with increased Global 
Hawk, Predator orbit, et cetera.
    They have also asked us to do some things that are best 
done from space, and those are infrared (IR) coverage, and that 
is what we will do.
    Mr. Heinrich. Great. Well, thank you General Kehler.
    I want to ask--sort of move to a different topic for 
General O'Reilly.
    You know, I am a believer in maintaining a multilayered 
missile defense structure, and one of the programs that we have 
invested a lot over the years and, because of my background in 
directed energy that had a real interest in, is the Airborne 
Laser, which I think presents a lot of value in areas of 
directed-energy research, as well as potential in both the 
boost and ascent phase.
    I wanted to ask you if you could discuss sort of what the 
Department's plan is for applying ABL's work to other directed-
energy efforts, and what plans are in store for the program 
after the forthcoming tests and shootdown this fall?
    General O'Reilly. Thank you, sir.
    First of all, the achievement of the Airborne Laser last 
year was truly revolutionary. We were able to fire a laser to a 
target that was 80 kilometers or farther away in the Earth's 
atmosphere, and the system normally shoots upward, so this is 
more difficult.
    We were able to measure the diffusion of the laser beam 
over this range and receive a return off the target and then 
compensate for that defocusing by the atmosphere, like your 
glasses, and we actually fired the laser, then, using adaptive 
optics with a defocused laser, and we used the Earth's 
atmosphere to focus it.
    So, what happened was we had a very precise laser, we have 
done it 12 times. So we have convinced ourselves that that 
breakthrough technology is directly applicable for any time a 
high-powered laser is fired in the atmosphere. And we did it 
repeatedly.
    That gave us the confidence to move on to take the high-
powered laser, the 1.3 megawatt-class chemical oxygen iodine 
laser (COIL), we have installed it in the aircraft. The 
aircraft has flown for several weeks now. It is going through 
flight checkout, and we are updating the optics on it. But we 
are convinced that we have solved the largest fundamental 
problem.
    We have also fired that large laser on the ground at 
Edwards Air Force Base over 70 times and at full power. So, it 
is a matter of integrating them onboard the aircraft, and that 
gives us the confidence for this year.
    However, this is revolutionary technology. We still must 
prove it. So we have a shoot-down planned in the fall against a 
couple of targets, and then if we are unsuccessful, this budget 
supports another attempt later on in the wintertime. If that is 
unsuccessful, a third attempt in the springtime. If that is 
unsuccessful, I will go back to the Secretary of Defense and 
propose either termination or some other decision.
    If it is successful, we will continue to use it as a 
research and development platform. It has given great 
indications that it can be put on military aircraft of a 
smaller size and be much more deployable.
    So those are the type of things we would like to pursue 
before we begin a Tail 2-type development.
    Mr. Heinrich. You meant when it is successful this fall, 
right?
    General O'Reilly. Sir?
    Mr. Heinrich. Sorry.
    General O'Reilly. Yes, sir. [Laughter.]
    Mr. Heinrich. Thank you very much, Madam Chair.
    General O'Reilly. We do want to prove it.
    Mr. Heinrich. Yes. Absolutely.
    Ms. Tauscher. Thank you. Thank you, Mr. Heinrich.
    I am happy to yield five minutes to the gentleman from 
Arizona, Mr. Franks.
    Mr. Franks. Well thank you, Madam Chair. Madam Chair, I 
guess the first thing I would like to do is just to identify 
with the ranking member's comments in his opening statement, 
and also with Mr. Heinrich's comments and inquiries related to 
the Airborne Laser. I think that is very insightful.
    Let me thank both of you for being here. I never want to 
forget that while those of us on this panel talk a lot about 
freedom, it is people such as yourselves that give all of your 
life to it and sometimes, literally, give your life for it. And 
you are the most noble people we have in our society.
    And often times, I think it is probably the most manifest 
in that you take whatever we do, imprudent or not, and you do 
the very best you can to protect this country. And I am very 
grateful to you.
    I have two new little babies, so I am more grateful than I 
have ever been to what you do, because what you do today 
certainly affects generations to come.
    One, perhaps, example that I might mention, General 
O'Reilly, in your testimony you talked about some of the legal 
impediments in the law in the last Congress that, perhaps, has 
impeded progress on the European site.
    And I continue to believe that the missile defense, and 
especially related to the European site, could potentially have 
the ability to devalue a nuclear program in Iran and help some 
of our other ancillary efforts to keep that country from going 
nuclear, which I feel is an imperative of the highest priority 
and may keep us from facing a, you know, a Jihadist terrorism 
in our own country.
    So, with that, General O'Reilly, let me direct my first 
question to you, sir. Pretty basic question: Do you believe 
that the threat from long-range missiles has increased or 
decreased in the last six months, as it relates to the homeland 
here?
    General O'Reilly. Sir, I believe it has increased 
significantly, and I base that assumption on the intelligence 
information. I am a customer. I do not develop intelligence, 
but I use it. And the demonstration of the capability of the 
Iranian ability to put a satellite in orbit, albeit small, 
shows that they are progressing in that technology.
    Additionally, the Iranians yesterday demonstrated a solid-
rocket motor test, which is much more feasible to deploy and 
sustain in the field, and that is disconcerting.
    Third, the North Koreans demonstrated, even though their 
attempt to put a satellite in orbit failed, they had a first 
and second stage that performed fairly well, which, again, 
shows that they are improving in their capacity, and we are 
very concerned about that.
    Mr. Franks. Sure.
    Well, I know that the reports that you mentioned show a 
difference in the strategic emphasis from 2002 to 2010, and I 
am hoping, just for the ability to educate the committee, that 
any reports or data that you are able to release to the 
committee that would help us understand, for instance--related 
to the ground-based midcourse. I think that some of your 
testimony is very compelling, and I would hope that any 
information or studies that you reference in your testimony, 
would that be possible to give that to the committee?
    General O'Reilly. Yes, sir.
    [The information referred to is classified and retained in 
the committee files.]
    Mr. Franks. All right. Thank you.
    Let me shift gears here on you. I think probably related to 
GBI, there has been a lot of questions that I will not repeat. 
But the manufacturing line and industrial base continues to be 
a great concern in any situation that we face. When does the 
line go cold for the second- and third-tier suppliers, and how 
will this affect your ability to keep options open for the 
future production of ground-based interceptors?
    General O'Reilly. Sir, for the lower-tier suppliers, the 
last procurement of the current 44 GBIs was made in 2008 and 
there was some long-lead procurements before that. So, their 
deliveries are occurring this year.
    One area that we are looking at is to upgrade the avionics 
of the missile fleet. And those are the types of initiatives 
the Secretary if referring to as continuing that work so that 
we have flexibility to respond to the decisions of the QDR and 
others, the Ballistic Missile Defense Review.
    So, we have attempted to be as flexible as possible from a 
programmatic point of view on those ultimate decisions, so that 
we are not prematurely limiting our ability to have an 
industrial base to produce GBIs.
    Also, the refurbishment program does replace a large part 
of the missile avionics system and other components, and so, by 
having a refurbishment program, also keeps the supplier base 
active to supply those components.
    Mr. Franks. Well, again, I thank you both very much for 
your service to the country.
    And thank you, Madam Chair.
    Ms. Tauscher. Thank you, Mr. Franks.
    I am happy to yield five minutes to the gentleman from 
South Carolina, Mr. Spratt.
    Mr. Spratt. Thanks very much.
    General, [audio break] talk about the significance and size 
of this program . . . [INAUDIBLE] . . . to bring that money to 
a current value in today's dollars, we have probably spent $150 
billion trying to master the threats of missile defense and the 
threat of other missile attacks. And clearly the threat is out 
there, but there are additional threats on top of that.
    Thank you, sir. Shows you my technical expertise.
    Let us cut straight to the BMD, or the GMD. In a way, you 
diminish that program with faint praise by cutting it from 44 
back to 30. Is this because you have reassessed the threat 
posed by rogue enemies, or is it because the system itself has 
limitations and there may be better options?
    And if the STSS turns out to be successful and proves that 
we can master the track and also that we can discriminate, is 
there a future for this system that is beyond the size that you 
have in mind right now?
    General O'Reilly. Sir, for the GMD system, sir, we believe 
that the threat continues to grow, but what we are watching is 
the rate at which these missiles can be launched, the raid 
size, how many can be launched at one time. That is critical to 
us to determine what size missile field do we need to respond. 
That is one.
    Second of all, the STSS program is a pathfinder for what we 
are exploring as a satellite system that is focused on basic 
functionality so that we do not run into the pitfalls we have 
seen in other satellite programs of cost and schedule overrun, 
and so forth, and I know General Kehler can respond to that 
better.
    But we are trying to narrow the requirement so that it 
delivers exactly what we need in a manner that uses proven 
technology for that program, so----
    Mr. Spratt. We have been following these systems, the 
SBIRS-High and the SBIRS-Low and now the STSS for a long time, 
and their potential was always just over the horizon.
    Are you confident that we are about to know whether or not 
it can perform the mission? If not, we may have to look 
elsewhere for something of its----
    General O'Reilly. Yes, sir.
    We are going to launch those satellites, those 
demonstrators, those two, in August, and we have a robust test 
program for the next year-and-a-half to demonstrate all of its 
capability. And that may be its shelf life, but traditionally 
they last on orbit much longer than that, and we are going to 
take advantage of every possibility we can to test this system 
and use it in different ways to prove out the benefit of a 
satellite constellation system for ballistic missile defense 
surveillance.
    Mr. Spratt. General O'Reilly, you testified before that 
there has been an increase of 5,900, I believe, of various 
missiles, but the vast majority of those, 93 percent, I 
believe, are short-range and medium-range missiles.
    Are we putting our money in the right place? Are we 
developing systems like the--adequate systems--like the THAAD 
and the Patriot Advanced Capability-3 (PAC-3) to counter the 
threat, or is there something else? Should not this be where we 
are putting substantial resources since this is where the 
threat primarily resides right now?
    General O'Reilly. Sir, our intent is, this is a fiscal year 
2010 budget. But, our intent is to increase the production 
capacity for both those systems so that we can, in our out-
years, we are exploring to triple the number that we previously 
were going to procure for the very reason you said, sir.
    So, we have a near-term greater capability against those 
shorter-range threats to cover our deployed forces and our 
allies.
    Mr. Spratt. Thank you very much for your testimony.
    General Kehler. And, Madam Chairwoman, if I could just add 
a point, Mr. Spratt, sir, just as a point of reference.
    The first two SBIRS payloads are, in fact, flying. Payload 
number one----
    Mr. Spratt. SBIRS-high?
    General Kehler. Yes, sir. Well, it is the elliptical orbit, 
but yes sir, it is a part of the SBIRS-high program. The first 
two are flying. The first one is performing exceptionally 
well--has been handed over to the Commander of Strategic 
Command (STRATCOM) for use.
    The second one is also flying and about two-thirds of the 
way through checkout and looks very promising, just as a point 
of reference.
    Ms. Tauscher. Thank you, Mr. Spratt.
    I am happy to yield five minutes to the gentleman from 
Washington, Mr. Larsen.
    Mr. Larsen. Thank you, Madam Chair.
    And, General--start with General Kehler this time.
    With the termination of the TSAT, it leaves open the 
question of the future of protected communications-on-the-move. 
And the increase from four to six satellites for AEHF, as well 
as the addition of the seventh for advanced procurement for 
WGS, brings home the question whether, you know, whether or not 
we are going to continue to have what we projected to be a TSAT 
capability. Is it going to migrate to AEHF or WGS, and I am 
just curious, in terms of thinking ahead on this, what the 
answer to that might be?
    General Kehler. Yes, sir.
    The decision on TSAT was really made in the context of all 
of the budget decisions. The requirement to provide for 
protected communications-on-the-move remains--protected 
communications across the board, really, but the requirement 
remains.
    But when you have to get to the source of capabilities the 
TSAT was going to bring is really the question. And in the 
context of the other budget decisions, some of the big demand 
for protected communications-on-the-move has slipped to the 
right with the other budget decisions.
    That has given us an opportunity to continue on a pathway 
that we have just really started. First of all is WGS, which is 
wideband unprotected, but very wideband, highly-capable pipes 
that we are putting up in the sky.
    The first one of those is flying--has been turned over to 
the combatant commander for use. The second one is on orbit and 
in checkout, and it looks like that is going to be a highly 
successful program.
    We then will continue to fly for a little while longer the 
Milstar system until we can put the first of the Advanced EHF 
satellites on orbit. It looks to us like we can--the decisions 
that Congress made last year to go to a fourth AEHF now gives 
us an opportunity to harvest some of the technology out of 
TSAT, bring that into Advanced EHF, and potentially WGS.
    At the same time, we will be still relying, at some level, 
on commercial satellite communications. The question for us to 
come back and answer to you is what that mixture looks like and 
how quickly we can pull into the protected piece of this, some 
of those technologies we have already invested in in TSAT.
    Mr. Larsen. So, I guess a base, or bottom line on that, or 
a headline from that is that it may be early to make a decision 
on whether--on where that potential capability should migrate 
to, the TSAT capability?
    General Kehler. I think we are--well, what we know is that 
we will infuse some of that technology into Advanced EHF. The 
question is--and perhaps WGS as well--the question is how, and 
in what kind of blocks.
    What we do not want to do, sir, is make the mistake that we 
have made in the past about having requirements that we cannot 
quite get our arms around at this point. We need to go 
deliberately. We need to use our ``block-build'' approach, and 
we need to pull in those things that make the most sense.
    Mr. Larsen. And I suggest to you that we do not want to 
help you make those mistakes, as well.
    General O'Reilly, the MDEB was constituted in this past 
year and I think that, was it January 21st of 2009 is when it 
first really came into--it does not matter--it came into place.
    General O'Reilly. Actually, it was July of the previous 
year, sir.
    Mr. Larsen. July of 2008.
    Was MDEB involved, then, in this year's--in the development 
of the fiscal year 2010 missile defense budget?
    General O'Reilly. Yes, sir.
    They have reviewed the budget and provided the input to it 
twice, and I presented to the Missile Defense Executive Board, 
that was well-attended, the proposals, and then their input 
went forward to the Secretary of Defense.
    Mr. Larsen. And was this the first time in the history of 
the agency, the Missile Defense Agency, that the budget was 
then developed with that additional oversight, as opposed to 
MDA going directly to SecDef and then to the Office of 
Management and Budget (OMB), and then to the President, and 
then to us?
    General O'Reilly. Sir, this was the first time we had the 
benefit of the, not only the process, but also the products 
that, for example, the combatant commanders, STRATCOM is 
required in this process to provide a Prioritized Capabilities 
List, which I responded to.
    And then they even evaluated my response and provided a 
Capability Assessment Report, which had a strong influence on 
this budget of--they rated us red, yellow, green on responding 
to their priorities, and that input was also provided to the 
MDEB.
    The products and the subcommittees were all working 
throughout this process.
    Mr. Larsen. Thank you very much.
    My time is up. The point I wanted to make is just that 
there is--I know we are having this debate about missile 
defense and I appreciate it as well. But it is really not just 
a matter of your debate, sorry, your budget showing up to us 
from the Secretary of Defense. It sounds like a more robust 
review, even before it got to that level, than we have seen 
before. That is what it sounds like to me--the internal review 
within the Department.
    General O'Reilly. Yes, sir.
    Mr. Larsen. Thank you very much.
    Ms. Tauscher. Thank you, Mr. Larsen.
    I am happy to yield five minutes to the gentleman from 
Rhode Island, Mr. Langevin.
    Mr. Langevin. Thank you, Madam Chair.
    General Kehler, General O'Reilly, thank you for your 
testimony here today.
    I have a couple of questions. First one, more in a broad 
sense and how you make your decisions. How robust is your 
effort in conducting an analysis of alternatives, as other 
technologies mature, and being able to incorporate them into 
existing programs?
    You know, we spent a lot of money in Defense Advanced 
Research Projects Agency (DARPA) developing cutting-edge 
technologies. I am always skeptical of expensive weapons 
systems and their ability to adapt to new technologies that 
emerge, you know, for example, the ABL using a chemical laser, 
and if there were to be advances in solid-state lasers, could 
you and would you be able to adapt to incorporating that type 
of technology on ABL, for example, even though you have 
invested so much time, effort, and money into developing a 
chemical laser.
    So can you talk to me about your robust effort in doing 
analysis of alternatives? How does that process work?
    General O'Reilly. Sir, that is a maturing process that is 
associated with the establishment of the Missile Defense 
Executive Board run by the Under Secretary of Defense for 
Acquisition, Technology and Logistics.
    The expectation in that board, though, is that the analysis 
that was done to support these decisions is on par with the 
analysis that was done in other milestone decisions. Again, 
this is a maturing process for the Missile Defense Agency.
    A good example would be we are looking at extending the 
range of the THAAD missile. Before we do that though, we are in 
a very collaborative analysis of alternatives and assessment by 
the Army, the Joint Staff, the Missile Defense Agency, all 
reporting out to the Missile Defense Executive Board.
    So that adds a level of scrutiny at that level that had not 
existed before in a formalized process. Also, I am the 
acquisition executive for the early stages of development, and 
although we are exempt from 5,000, the DOD processes for 
acquisition, I am reviewing the use of a milestone process for 
my sake, in order to conduct extensive analysis and evaluation 
of alternatives before we initiate contracts in the way that 
you are referring to, sir.
    And that is for the initial milestones. A full-scale 
development, I am soliciting the participation of the service 
acquisition executives that I am going to--that is ultimately 
going to receive this capability, so that together we are 
reviewing these programs before we execute large contracts.
    We do work with DARPA and we have had exchanges with them 
and we are investing in solid-state laser on the side as a 
technology program.
    Mr. Langevin. Thank you for your answer, General.
    General O'Reilly, I know that some of these things you have 
talked about in your opening statement and some members have 
touched on them, but just again for my comfort level, the 
budget request increases funding for the Aegis BMD and THAAD 
programs by $900 million, while terminating the Multiple Kill 
Vehicle, Kinetic Energy Interceptor, and adding the approaches 
of the second Airborne Laser prototype.
    Can you talk a little more about the Department's rationale 
for the significant increase in funding in these two programs 
and cutting back on the other three? And also why were these 
decisions made prior to the completion of the Administration's 
missile defense policy and strategy review? And finally, does 
this reflect a shift in focus from long-range threats to more 
short- and medium-range threats?
    General O'Reilly. Sir, the Missile Defense Executive Board 
process allowed the warfighter a strong voice on what 
priorities of capabilities they need and what risk assessments 
are out there. The Joint Staff, or the Joint Requirements 
Oversight Council (JROC), over a year ago, approved a study 
that showed that we were deficient in the number of Aegis and 
THAAD missile systems.
    And so that was an endorsed study from the previous two 
years ago, and so therefore with the scrutiny that that study 
has had, and the endorsement it has had, we move forward with 
those procurements because the threat to those forces exists 
today, and we wanted to, as quickly as possible, respond to 
both those requirements that were endorsed by the Vice Chiefs 
of the Services and meet the threat that we saw out there.
    The other shift, though, is primarily, we--part of the 
Missile Defense Executive Board is it does review the threat. 
And it does review the intelligence and so forth. And we are 
aiming the research and development, along with the deployment 
of the most mature systems we have, to respond to the large 
preponderance of the threat which is in the short and medium 
ranges.
    Mr. Langevin. And the issue of waiting for the completion 
of the Administration's missile defense policy and strategy 
review?
    General O'Reilly. Sir, there is a lot of decisions that we 
did not make, such as to keep the GBI line--to terminate that 
line. We did not. And there is an example of we are maintaining 
programmatic flexibility awaiting for those decisions, those 
policy decisions, to be made later this year and announced 
through the QDR and the Ballistic Missile Defense Review.
    So we wanted to be as responsive as we could, as quick as 
we could, to the combatant commanders' request for missile 
defense capability--at the same time, allow programmatic 
flexibility for those policy decisions that will be made later 
on this year.
    Mr. Langevin. Thank you, General.
    I yield back.
    Ms. Tauscher. Thank you, Mr. Langevin.
    I think we will go into a second round of questions.
    General O'Reilly, the United States and Israel are jointly 
developing an upper-tier missile defense system to engage 
potential ballistic missile threats to Israel at longer ranges. 
Israel's preferred alternative is to develop a new missile, the 
Arrow-3. However, I understand that successful development of 
the Arrow-3 system is considered a high risk.
    What are the key risk areas? Are we exploring alternative 
ways of assisting Israel to meet its upper-tier requirement? 
And how likely is it that Arrow-3 will be able to meet the 
schedule of deploying in initial capability by 2014?
    General O'Reilly. Ma'am, the design for the Arrow-3 missile 
system shows it will be an extremely capable missile. It is 
very advanced. It is a more advanced design than we have ever 
attempted in the United States with our programs. That is due 
to the way that the seeker has great flexibility, and it has 
other propulsion systems. It will be an extremely capable 
system.
    However, associated with that advanced development is the 
schedule that goes along with that and the timelines in which 
we saw, we are not in a position to say they cannot achieve 
those technical accomplishments. And we hope they do, and we 
are very supportive of that process.
    But we saw particularly the schedules in which they were 
proposing, I had deemed, and I had had independent studies 
deem, as very high-risk for a missile development program.
    So, our assessment is that it is unlikely that they can 
meet the schedule, which they had laid out to accomplish all of 
these technical achievements, at this time.
    Ms. Tauscher. Thank you.
    Mr. Turner.
    Mr. Turner. Thank you, Madam Chairman.
    It was our understanding that Mr. Rogers from Alabama was 
going to have an opportunity to speak after the first round, 
but since we are going to wait for the second----
    Ms. Tauscher. No one consulted with me on that. If they had 
consulted me, I would have said that having two----
    Mr. Turner. That is fine.
    Ms. Tauscher [continuing]. Two different hearings at once 
would have made it difficult to do that.
    Mr. Turner. That is absolutely fine. It was really a staff 
communication to us. So we understand, Madam Chairman, that 
that was not your call. But in order to facilitate his 
schedule, I am going to yield to him a portion of my time.
    Thank you.
    Mr. Rogers. Thank the ranking member.
    Generals, thank you both for being here, and thank you for 
your service.
    General O'Reilly, I want to pick up on our conversation 
from last week about these GBIs. Well, first of all, when you 
were talking to Mr. Langevin, I thought you said you were 
delaying the decision on the GBIs until later--the termination 
of that.
    General O'Reilly. Sir, that is the production line. We have 
not proposed that we would stop the production line or any 
potential for future buys of GBI.
    Mr. Rogers. That is----
    General O'Reilly. What we had stopped was the going beyond 
30 missile silos.
    Mr. Rogers. Okay. So then as far as tests are concerned, I 
know that of the 44 you are going to use 10 for testing. So you 
are not--at least on this date--you are not planning to 
discontinue production so that you will have some future 
interceptors for tests?
    General O'Reilly. Yes, sir.
    We are, in fact, in parallel to this effort, going through 
a test review with the Director of Operational Test and 
Evaluation and the service Operational Test Agencies. And we 
are identifying quite a number of tests that we are going to 
need in the future that will require GBI participations, 
including salvos of GBIs.
    So that--we are completing that work now and that will be 
another indicator of the number of ultimate GBIs we would need 
for the purpose of testing.
    Mr. Rogers. Great.
    You talked earlier when the ranking member was asking you 
about the logic for 30 as opposed to 44 being deployed, and you 
basically said you looked for somebody to tell you why we had 
44, and you never had been able to get an answer.
    General O'Reilly. Well, sir, it was the best I can tell. I 
have not seen an analysis, but the best I can tell, it was a 
judgment based on where the threat would be today driven by how 
many rogue-nation intercontinental ballistic-type missiles 
could be launched at one time in this timeframe. And, of 
course, it was very hard to judge risk or the threat, and that 
was a judgment done many years ago. But that was the best 
understanding I have today of how the number got to be 40, at 
that time.
    Mr. Rogers. Well, I understand your interest in the Ascent-
Phase Interceptor, and I like that idea. I just do not 
understand why we would diminish a level or a layer of our 
current capability while we are waiting on that, I think 
exciting, technology to mature.
    General O'Reilly. Sir, in the GBI assessment or analysis, 
we did go back and look at what we know today and what the 
Intelligence Community can identify as the ability for the 
threat to launch multiple.
    We need a GBI capability. We realize that. And we need to 
have one that is sustained for decades.
    Mr. Rogers. Right.
    General O'Reilly. We realize that, and we have not shut the 
door to that at all.
    In the area of the execution of those other programs, which 
we terminated, their execution was delivering very late, it was 
very high-risk. We want that capability, but although boost-
phase capability would be ideal, our assessment of the risk of 
achieving that is very high.
    Yet, very close to boost-phase is ascent-phase, and we 
thought it was much more achievable, and we want to have enough 
interceptors so that we can respond in volume with a large 
number of interceptors responding back to those threats.
    And so we are trying to explore, and we are pursuing ways, 
to take our given force structure today and make it more 
powerful and more of a deterrence to these type of launches.
    Mr. Rogers. How much money is in the budget for that 
ascent-phase technology development?
    General O'Reilly. Sir, if look at what we are strictly 
going to be investing in, it is focused at about $368 million 
this year. But it leverages the interceptor work and over $1.5 
billion that is going on in the development of the rest of the 
system that the ascent-phase adds that first layer of defense.
    So, it is going to be working with--it is going to be 
developed in consonance with that other $1.5 billion. So I did 
not advertise $1.8 billion in that area because I believe that 
is not a fair assessment.
    But there is $368 million that is directly going to give us 
this type of capability to use the rest of the system this way.
    Mr. Rogers. Well, thank you very much. I appreciate that.
    And I yield back.
    Ms. Tauscher. Mr. Larsen, do you have any second-round 
questions for five minutes?
    Mr. Larsen. Not at this time, Madam Chair.
    Ms. Tauscher. Mr. Lamborn for five minutes?
    Mr. Lamborn. Thank you, Madam Chairman.
    General Kehler, how does the $136.4 million increase in 
Space Situational Awareness funding in the fiscal year 2010 
budget reduce the vulnerability of our space assets, and will 
the increase enable the DOD to share SSA data to prevent 
accidents like the Iridium collision in February?
    General Kehler. Sir, with the increased importance of space 
comes some interesting issues, one of which is an increased 
need for us to have better situational awareness of what is 
there.
    Space becomes more crowded all the time. We look at over 
19,000 objects that we actively track on orbit. There are 
hundreds, certainly, thousands, perhaps even more that are 
there that we do not see--nuts, bolts, washers, screws, things 
that have been part of the cost of doing business on orbit. And 
so it is important for us to increase our situational 
awareness.
    In the 2010 budget, the increases that we have asked for 
for situational awareness are not because of program overruns. 
They are not because of difficulties that we are having. We are 
looking to target that fiscal year 2010 investment at being 
able to use our existing sensors better. And that means being 
able to understand the data, collect more data from the 
existing sensors, put it together better, and put it to better 
use.
    In the meantime, as we are working our way down this road, 
we are increasing our computing capability today, as well as 
the number of human beings who are analysts who can look at the 
data and decide when a collision might occur.
    That money is actually being spent right now, today. It is 
not, by budget standards, it is not a huge amount of money. We 
expect to have much better capability to predict potential 
collisions by the end of this year.
    We are better today than we were when the collision 
occurred back in February. We will be better tomorrow than we 
are today. But that is at using the data that we already have 
and being able to use it better.
    As we go into 2010, we will begin to pull more sensors into 
that mixture, and I think we will be able to do better sooner 
not by worrying about new sensors, although there is some of 
that in that budget. We will put a new sensor on orbit here 
later this year that will allow us to observe objects on orbit 
better.
    But by and large, this near-term investment is to make our 
operations center better. They can process the data better, 
display it better, and give human beings some better 
understanding of what they need to do, and how they need to go 
about it.
    Mr. Lamborn. Okay. Thank you.
    General O'Reilly, the budget request includes only $51 
million for a European capability. Does this low funding level 
indicate a change of Administration position or lack of support 
for European missile defense?
    General O'Reilly. Sir, it does not. It reflects the legal 
restraints I have from last year's Authorization and 
Appropriation Act. Fifty-one million is about the extent I can 
execute this year without the ratification of the Ballistic 
Missile Defense Agreements of the Czech Republic and Poland.
    We are continuing the two-stage GBI development, which also 
is part of the European capability and the development and 
deployment of forward-based radars, which are also part of that 
architecture.
    But I am limited to that amount; that was my estimate as 
how much I could do without these other constraints being met.
    Mr. Lamborn. Okay. Thank you.
    On Tuesday, a Washington Post article referenced a study by 
the EastWest Institute, an independent think tank based in 
Moscow, New York, and Belgium, that concluded the proposed 
European missile defense system is ``ineffective against the 
kind of missiles Iran is likely to deploy.''
    General O'Reilly, you do not agree with that assessment, do 
you?
    General O'Reilly. No, sir, I do not.
    Mr. Lamborn. And why not? [Laughter.]
    General O'Reilly. Sir, a lot of the assumptions they use in 
these type of assessments are not accurate and they do not 
reflect our true capability--our specifications, what we have 
demonstrated, also what we know of the threat, for what I have 
access to in intelligence, it does not correlate to the basic 
assumptions that they use in that study and others I have seen 
like that.
    Mr. Lamborn. Thank you.
    Madam Chairman, I yield back.
    Ms. Tauscher. Thank you, Mr. Lamborn.
    Mr. Langevin, from Rhode island, for five minutes?
    Mr. Langevin. Thank you, Madam Chair.
    General O'Reilly, it has come to my attention that MDA has 
set aside money for THAAD batteries but not radars. I was 
concerned that the goal of the Administration appealed more to 
THAAD systems and may be hampered by a limit in the X-band 
radars and production to accompany the batteries.
    What is MDA's plan for dealing with the gap in deployable 
radars to the new THAAD systems, and when does MDA begin the 
procurement of the radar to meet the Administration's goals?
    General O'Reilly. Sir, we do not have a gap in the radar 
between the radars and the batteries. This radar is a 
multifunction radar. It can operate with the THAAD unit for 
tactical defense, and it can also operate standalone as a 
forward-based radar for strategic-type threats, long-range, 
IRBM, ICBM, on its own.
    So, what we have procured is enough for the THAAD units 
today, and additional radars to also produce in that same 
function, we are developing the software so that these radars 
can operate in one function or the other, and they are 
interchangeable.
    So, this concern may be the concern that they do not see a 
radar matched to a particular battery. We did that on purpose 
so that we have a pool of radars and any of them can support 
that battery. But we have the seventh radar being delivered 
this year and we have four THAAD units previously. With this 
budget, we are proposing additional THAAD units, two more, and 
with those THAAD units come radars.
    Mr. Langevin. Thank you, General.
    That was all I had, Madam Chair. I yield back.
    Ms. Tauscher. Thank you, Mr. Langevin.
    Mr. Franks for five minutes.
    Mr. Franks. Thank you, Madam Chair.
    General O'Reilly, earlier you had just mentioned briefly 
the complexity of the Arrow-3, and this was not really one 
going to be one of my questions, but I was somewhat fascinated 
that, potentially, it has the potential to have some paradigm 
shifts in missile defense capability.
    And I understand that there is at least an effort to make 
sure that that process stays alive to see if they make their 
knowledge points and it is because the Israelis, as you know, 
certainly have shown the ability to shock the world, many 
times.
    And I am hoping that we can make sure that if that is to 
happen again, it can be good for the United States and for 
Israel. So I am glad to see that there is still an effort there 
to see how they do with the Arrow-3.
    The committee--in fact, you cited the Joint Staff's joint 
capability, the Joint Capabilities Mix (JCM) study conclusion 
that twice the number of Aegis and THAAD interceptors are 
required, and to the budgets, in my judgment, they did that, 
and I think that is a credit to those who did.
    What studies have been done to identify the force-structure 
requirements for the rest of the missile defense architecture, 
like for example, you know, GMD or Patriot or radars and other 
sensors. Have there been other studies that, you know, to 
identify the force requirements?
    General O'Reilly. Sir, over the past year, we have also had 
great success in establishing Memorandums of Agreements with 
the Services. And in the case of the Army, I signed one with 
the Secretary of the Army in January.
    Part of that created a board of directors in which would 
review those exact studies so that we have Army input, we 
participate with the Army, and we make joint decisions. The 
programs you mentioned are all Army programs, and that is how 
we have worked through the Army force development process of 
their Army staff to determine what are the force structure 
requirements for the Army.
    Mr. Franks. And, again, without pressing you too hard here, 
are there copies that would be available to the committee that 
would give us some clarification as to what the rationale was 
in many of those case?
    General O'Reilly. Sir, I will have to go back and look at 
that, but I will go back to the Army and make that request.
    [The information referred to can be found in the Appendix 
on page 119.]
    Mr. Franks. I would appreciate it, General. Sure would.
    Let me then shift gears again. You know, there have been at 
least one study that has examined alternatives to the proposed 
missile defense system in Europe, and the independent 
assessment conducted by the Institute for Defense Analyses 
(IDA), which was required by the fiscal 2008 budget.
    Have you seen any alternatives to the current proposal that 
are more cost-effective in providing defense of Europe and the 
U.S. than the existing plan?
    General O'Reilly. Sir, we are going through that cost-
estimating process right now. There are several alternatives 
that it, again, it is driven by the assumptions, 30-year life, 
those type of assumptions.
    But the current proposal for an upper-tier defense, which 
is what was proposed--upper-tier against long-range threats. We 
have not seen a proposal that is less costly than that.
    But we are also evaluating, and the Department is 
evaluating, the protection of all of NATO, and that is more 
costly when you bring in other units because you need shorter-
range units to protect the southern tier from Iran, which is 
the focus of this.
    But for the upper tier, for the lowest cost of protecting 
for the upper tier would be the program of record, at this 
time.
    Mr. Franks. Well, one of the alternatives that I have seen, 
you know, would provide protection for Europe, but it would not 
provide protection for the homeland. And I just want to make 
sure, you know, that the protection of the United States is 
still a necessary criteria for the Administration's plans for 
the European site.
    Is that still your understanding?
    General O'Reilly. Yes, sir. And there are analyses going on 
and assessments by the Department as part of the Quadrennial 
Defense Review that have not been complete yet. But, from that 
point of view, the requirement I have had, the guidance I have 
had, is for the protection of the United States and Europe.
    Mr. Franks. General, I hope you are successful. Thank you, 
sir.
    Ms. Tauscher. Mr. Turner.
    Mr. Turner. Thank you, Madam Chairman.
    Obviously, a lot of the questions that you are receiving 
today concern the reduction of the 44 GBIs to 30--is a concern 
of not only the level of protection that we have but also 
looking forward and our capabilities to support our industrial 
base.
    There is concern in second- and third-tier suppliers where 
reports indicate could be without work at the end of this year, 
which results in the issues of loss of capability and cost for 
restarting versus cost for maintaining.
    You had indicated before the 44, perhaps, was arbitrary. 
You believe that you have some basis for looking at 30. But one 
of the issues that has been raised in the numbers that you are 
going to be reducing the ground-based interceptors to is the 
issue of sustaining flight testing.
    According to the budget request, 10 of the remaining 14 
GBIs not deployed will be used for test assets. Assuming two 
flights per year, and perhaps the salvo test, the expectation 
is that you would run out of test GBIs before the end of the 
Future Years Defense Program (FYDP). Once these 10 GBIs are 
used up, do you see the need for further GMD flight testing? 
And then the context in which this information has been 
highlighted is the issue that, currently, for our ICBMs and our 
Submarine Launched Ballistic Missiles (SLBMs), you say they are 
two to three times--there are flight tests.
    My understanding is that, General Kehler has indicated that 
before the Senate Armed Service Committee--that you would like 
to go from three flight tests to four flight tests. The concern 
is, obviously, is that with the reduction, you are going to run 
out of the ability to conduct tests of something that, perhaps, 
if you look at other programs, we will need a continuous 
sustainment, not just for determining whether or not it 
operates but whether or not there are upgrades and other types 
of testing to ensure that it is operational.
    If you are going to run out of these, it does seem that 
there, perhaps, should be an effort to sustain our industrial 
base, both the second- and third-tier suppliers, so we do not 
incur a huge cost as we go forward with testing. Have you taken 
that issue into consideration, and what are your thoughts?
    General O'Reilly. Sir, if I can, first is I do not believe 
I have said the 44 was arbitrary, it was just I have not seen 
the substantiating data that was used for that. It appears to 
me to have been a judgment on risk and on an intel assessment 
of how many threat missiles would be available today, or we 
would be threatened by, for simultaneous launch.
    But, so it was a judgment made on data. It is just that 
that data is still under assessment, and I know what they said 
and it is not the case here----
    Mr. Turner. Okay, I guess that is where I accept your 
correction, however, I guess the concern that everyone has is, 
well, what is the change? Is the data on which it was based 
lost to you? I mean, you say you have not seen it. Because what 
we would like to see is what has changed.
    Everyone's understanding of the changes of the environment 
we are in is an increasing threat, not a decreasing threat. And 
so that is why everyone is so concerned about your now 
proposing a decrease. So, in the issue of picking that number, 
people have concern about what data was used. So, if you do 
have an ability to look back at that and give us some 
comparative, we would appreciate it. But your thoughts on the 
issue of testing, I would appreciate.
    General O'Reilly. Yes, sir.
    This budget was developed without the benefit of the 
current test review, which is ongoing, that we have testified 
to before; Dr. McQueary, myself, and General Nadeau. We are 
completing that review now. It has an increase in testing over 
what was previously assumed for the purpose of this budget. 
Those results will go to the Missile Defense Executive Board, 
and we will brief that out for judgments made by them in order 
to inform our proposed budget, 2011, for the next year.
    In the meantime, my concern has been, as you have stated, 
to focus and ensure that we are addressing the obsolescence 
process--or problems that do occur with any electronic system 
over time, and we are in a position in which to activate the 
production lines if they do go cold or extend those production 
lines for those suppliers through a refurbishment process.
    What this budget proposed which did not exist before was a 
formal process where you have additional missiles, spares, 
intentional. And you recycle them through fleet as a way of 
measuring their performance and understanding their aging.
    These are also fairly extensively tested missiles in their 
silos themselves. They were designed that way up front using 
the latest technology at the time, which was just a few years 
ago, which is much beyond the type of fleets at which we are 
compared to often, the older missile systems that do not have 
the level of built-in tests and they are not monitored in the 
same way in their environment.
    But even with that, we have an annual maintenance program. 
We have a quarterly program that goes out and looks and 
measures the performance of each missile. In the past, we have 
pulled missiles and refurbished them because of the 
instrumentation which we have in these silos.
    So, when we put that together, that is also going to be 
considered into the ultimate number of GBIs that we need to 
procure.
    Mr. Turner. Okay. So I do not mischaracterize what you have 
said, and see if I can get this right, you do believe that 
there could be increased flight testing requirements in looking 
at sustainment of the program. You are evaluating that. You are 
going to be making recommendations as to what that would be, 
and it might result in a shift in the number of ground-based 
interceptors that you are going to recommend, which could, in 
turn, then assist sustaining the industrial base.
    General O'Reilly. That is correct, sir, as we finish this 
review of what is necessary in order to fully characterize the 
GMD system.
    Mr. Turner. And, excuse me if you said, because I did not 
catch it, what is your timeframe for that?
    General O'Reilly. Sir, we had testified before we would be 
complete by now. It is a very complex review involving 
STRATCOM--was added to the process, so we have a warfighter 
input. We thought that was important.
    But our timeframe is June, sir. Next month.
    Mr. Turner. So, you think that the number of ground-based 
interceptors that--you may have a different number as we move 
forward with this bill, then, for us.
    General O'Reilly. Sir, we will propose it to the Missile 
Defense Executive Board as the total results that come out of 
this testing program.
    Mr. Turner. Thank you.
    Ms. Tauscher. Thank you, Mr. Turner.
    I am about to close the hearing, but I just wanted to make 
one clarification, General O'Reilly, because I think that there 
is clearly some confusion. Do we not already have a defense 
against some of the Iranian long-term threat in the Alaska 
system?
    General O'Reilly. Yes, ma'am, we do----
    Ms. Tauscher. So the idea that we would have no threat, no 
deterrent, no defense, unless the European site was built is 
really leading people astray?
    General O'Reilly. Ma'am, the European site is focused on 
protection of what we do not have in Europe today and redundant 
coverage of the United States, but it is redundant coverage of 
what we already have.
    Ms. Tauscher. Thank you.
    Well, General Kehler and General O'Reilly, thank you very 
much for being here, once again. We extend our best wishes to 
people in your command, both the civilian and the Guard and the 
Reserve and the folks that are working on active duty, and we 
appreciate your being here.
    You have informed us very well on the number of issues that 
we have a lot of jurisdiction over, so we thank you very much. 
And the hearing is adjourned.
    [Whereupon, at 4:08 p.m., the subcommittee was adjourned.]
?

      
=======================================================================



 
                            A P P E N D I X

                              May 21, 2009

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                              May 21, 2009

=======================================================================

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                              May 21, 2009

=======================================================================

      
              RESPONSE TO QUESTION SUBMITTED BY MR. TURNER

    General O'Reilly. In FY 2010, we will maintain the Ground-based 
Midcourse Defense (GMD) long-range defense capability with missile 
fields at Fort Greely, AK (FGA), and Vandenberg Air Force Base (VAFB), 
CA, where we will emplace 26 and 4 Ground-Based Interceptors (GBIs), 
respectively. While the number of missile silos will remain at 26 at 
FGA, we will transition to newer silos to improve operational 
readiness. Thirty highly ready, operational GBIs will provide the 
United States with a sufficient number of operational interceptors, 
considering the limited number of ICBM launch complexes in North Korea 
and Iran and the long development time required for construction of 
additional ones. Additional GBIs, beyond the 30 emplaced in silos, will 
be necessary for maintaining and refreshing an operational fleet of 
GBIs through testing, upgrades and refurbishment. In FY 2010, we also 
propose to fund enhancements to GMD models and simulations, upgrades to 
increase the robustness and reliability of GMD communications; upgrades 
to command and launch systems; and security, infrastructure, and 
sustainment operations at FGA and VAFB.
    In addition to the budget request for GMD, there are other 
significant midcourse defense development activities in our proposed FY 
2010 budget intended to enhance GMD's contribution to the BMDS. 
Approximately $650M beyond the BMD Midcourse Defense program element 
will benefit and enhance the operation of our long-range defenses, 
namely, test planning and execution and target development ($160.6 
million); development and operation of the Sea-Based X-Band radar 
($174.6 million); software development, system engineering, and 
External Sensors Lab work for the AN/TPY-2 X-Band radar ($201 million); 
operation of the Upgraded Early Warning Radars ($28 million); modeling 
and simulations ($51.3 million); and work on the Single Simulation 
Framework ($36 million).
    Continued research and development will improve the capability we 
already have to defend against long-range rogue missile threats. We 
will also continue rigorous ground testing as well as the development 
and testing of two-stage GBIs to expand the defensive battle space, 
better protect the United States, and potentially develop a European 
Capability.
    While the emerging results of the MDA test restructure study will 
influence the final number of GBIs procured, the FY 2010 budget conveys 
a commitment to complete the procurement of 44 GBIs already on 
contract, some of which will go to the replacement and refurbishment of 
the 14 oldest interceptors in order to improve operational readiness of 
the fleet and extend GBI production capability. Completion of this 
procurement allows us to retain an active production capability which 
could be used to meet potential requirements for the European 
Capability, respond to test results, and implement future policy and 
fleet lifecycle management decisions. Moreover, similar to Air Force 
and Navy practices for Minuteman and Trident missiles, we intend to 
propose procurement of additional GBIs beyond the 44 already delivered 
or on contract for long-term follow-on operational test and evaluation.
    Although we will limit the number of operational silos to those 
required to support the 26 interceptors at Fort Greely, we are 
reviewing the construction of Missile Field #2 to determine the most 
cost-effective approach to maintaining the highest level of missile 
silo reliability for future decades of GBI operations.
    Additionally, we are upgrading the security infrastructure and 
completing the construction of a new power plant and power distribution 
system at Fort Greely. Once operational GBIs are emplaced in all 30 
silos, we will begin replacing the oldest emplaced GBIs with the newest 
interceptors from the total produced to maintain a high state of 
operational readiness in their latest configuration. [See page 17.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. FRANKS
    General O'Reilly. The Services develop force structure requirements 
in partnership with the Missile Defense Agency (MDA). MDA provides the 
technical and analytical information on Ballistic Missile Defense (BMD) 
systems to the Services so that they may determine the BMD force 
structure required to meet their operational demands. Once developed, 
the Services pass requirements to USSTRATCOM for prioritization and 
then to MDA/Service Boards of Directors (BoD) and the Missile Defense 
Executive Board, in turn, for adjudication.
    MDA has assisted the Army, as Lead Service, in the development of 
force structure requirements for the Terminal High Altitude Area 
Defense (THAAD) system, the AN/TPY-2 Radar (Forward-Based Mode), 
Ground-based Midcourse Defense (GMD) interceptors and fire control, and 
most recently, European BMD capability.

    European Capability

    Army and MDA have conducted numerous site visits in Poland. MDA and 
the Army have developed plans for the construction of European 
Interceptor Site facilities and the Army has developed force structure 
estimates required to operate and maintain those facilities. The 
European Operational Concept, published by MDA in April 2009, describes 
the operation of the European component within the Ballistic Missile 
Defense System. The Army will leverage this document when developing 
the Doctrine, Organization, Training, Leadership Personnel and 
Facilities required for BMD capability. European Capability force 
structure planning is on-going. However, force structure resourcing 
will only occur pending ratification of agreements with Poland and when 
directed to execute the program.

    AN/TPY-2

    The initial deployment of AN/TPY-2 (Forward-Based Mode) radar at 
Shariki, Japan in Jul 2006 under national emergency underscored the 
need to resource AN/TPY-2 units. MDA has provided Space and Missile 
Defense Command with AN/TPY-2 concepts, operational description, 
functions, and tasks to support detailed analysis for the design and 
development of force structure required for AN/TPY-2 units. The Army 
has conducted a force design update and resourced Table of Organization 
and Equipment for four AN/TPY-2 Radars. The Joint Requirements 
Oversight Council reviews ballistic missile radar capabilities and 
placement options to provide improved surveillance and impact point 
prediction support in support of Combatant Command (COCOM) 
requirements. Decisions for radar deployment follow COCOM procedures 
and the Joint Staff's Global Force Management Process.

    Terminal High Altitude Area Defense (THAAD) 21-inch Business Case 
Analysis

    MDA, in collaboration with the Army, is developing a Business Case 
Analysis (BCA) analysis for the development of a 21-inch interceptor. 
The Army is working on a companion study which examines the impact of 
an enhanced, improved capability of a 21-inch interceptor on currently 
planned Army force structure. Both studies are expected to be presented 
at the next MDA/Army BoD for PB12 consideration.

    Joint Capability Mix Study

    The Joint Capability Mix (JCM) II study was conducted by the Joint 
Staff J8 JIAMDO in collaboration with MDA and the Services. The JCM II 
has recommended the acquisition of additional inventory for THAAD, 
Aegis, AN/TPY-2 Radar and European Mid-course Radar. The Joint 
Requirements Oversight Council has endorsed the recommendation. The 
Missile Defense Executive Board and the Deputy's Advisory Working Group 
have approved resources for the acquisition of these components.

    Ballistic Missile Defense Review

    The Ballistic Missile Defense Review, currently being conducted by 
the Office of the Secretary of Defense and the Joint Staff, is 
analyzing key aspects of missile defense policy, force structure, 
sufficiency, and funding. The review is scheduled for completion in 
January 2010.

    Upgraded Early Warning Radars

    Air Force is the Lead Service for the Upgraded Early Warning 
Radars. Force structure (manpower and funding) requirements for those 
components are found in the Transition and Transfer Annexes, co-
authored by Air Force and MDA and approved by the MDA/Air Force BoD.

    Aegis BMD

    In addition to the Joint Capability Mix II requirements that call 
out SM-3 quantities, Aegis Ballistic Missile Defense (BMD) has 
documented formal requirements from several Combatant Commanders that 
call for Aegis BMD ship presence in various regions. The requirement 
exceeds what can be supported by the number of planned Aegis BMD ships. 
These requirements are being addressed in PR11.

    Additional Studies

    The Missile Defense Executive Board Operational Forces Standing 
Committee has directed review of other technology initiatives with 
force structure implications. These studies are listed below. If 
technology is proven, these capabilities would become the basis for 
future Service force structure reviews.
    <bullet>  Land-Based SM-3 Architecture
    <bullet>  Early Intercept
    <bullet>  Air-Launched Hit-to-Kill Initiative [See page 36.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                              May 21, 2009

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. TURNER

    Mr. Turner. The FY 2010 budget request includes a total of $9.3 
billion in missile defense funding, approximately $1.5 billion below 
the FY 2009 funded level. A significant number of programs were 
eliminated such as MKV and KEI; some were significantly reduced such as 
GMD. Can you provide the committee with the analysis data the 
Department used to recommend these total programmatic changes?
    General O'Reilly. In direct response to the warfighter's expressed 
needs, we are reshaping our program of work to bolster transportable 
regional defense capabilities to provide more robust protection of our 
deployed forces, allies and friends against existing threats.
    In accordance with Unified Command Plan 08, United States Strategic 
Command (USSTRATCOM) is responsible for synchronizing planning for 
missile defense. In coordination with the other combatant commands and 
the Services, USSTRATCOM uses its Warfighter Involvement Process (WIP) 
to develop and produce a biannual list of desired ballistic missile 
defense capabilities, the Prioritized Capability List (PCL). MDA 
responds to the PCL with an assessment, called the Achievable 
Capabilities List (ACL), of the technical and schedule risks and 
programmatic feasibility of delivering the requested capabilities in 
the timeframe specified. As a member of MDA's program control board 
which manages the configuration of MDA's programmatic and operational 
baselines, USSTRATCOM assesses the degree to which the ACL satisfies 
the PCL. This assessment is called the Capability Assessment Report 
(CAR). The CAR provides the foundation, justification, and rationale 
for MDA's annual budget submission. Although the PCL is produced every 
two years, the Operational Forces Standing Committee (OFSC) and the 
Missile Defense Executive Board (MDEB) review BMDS development 
priorities and progress on a bimonthly basis. These programmatic 
changes are in concert with expressed warfighter ballistic missile 
defense capability needs.
    More specifically, the Department chose to terminate the Multiple 
Kill Vehicle (MKV) program because it was not considered affordable at 
this time given its technical challenges, our need to re-look at 
requirements, and our need to re-allocate resources to accommodate an 
increased focus on theater capabilities. The MKV technology program was 
established for integration on to midcourse interceptors to address 
complex countermeasures by identifying and destroying all lethal 
objects in a cluster using a single interceptor. Because this 
technology is still in the early stages of development and considerable 
questions remain about its feasibility, we decided to focus resources 
instead on technologies that are designed to defeat advanced 
countermeasures of launched missiles in their ascent phase--after the 
boost phase and before the threat missile reaches its apogee.
    The Department terminated the Kinetic Energy Interceptor (KEI) 
program because it is incompatible with the Department's direction to 
counter rogue nation and theater threats and it is not the most cost or 
operationally effective hedge to countering future ballistic missile 
threats. KEI's boost phase intercept mission was ideal for countering 
long-range, advanced, strategic threats, but current and emerging 
medium- and intermediate-range threats over the next decade will be 
more effectively countered early in their flight (during a threat 
missile's ascent phase) by utilizing near-term interceptors and 
leveraging the Missile Defense Agency's emerging BMDS sensor and 
command and control network. The deployment of other interceptor 
systems will be much sooner than KEI's planned deployment. The 
deployment of other interceptor systems also avoids the significant 
operational and platform integration issues associated with deploying a 
new, large KEI class interceptor on mobile platforms. KEI was not 
deemed affordable due to the cost growth of program and a program delay 
from the original five years to today's fourteen-year development 
schedule. In addition, delays due to technical problems indicated a 
lack of technology maturity of the KEI interceptor.
    Regarding the Ground-Based Missile Defense (GMD) Program, the GMD 
planned program for FY10 has a balanced program for sustainment of the 
current operational capability while continuing development for future 
capability. The GMD program plans include funding for key element goals 
in advancing the GMD system to stay well ahead of the threat 
capabilities of rogue nations. Specifically, verifying capability and 
improving confidence in the fielded system, continued ground/flight 
testing and fielding of thirty operational GBIs. Thirty highly ready, 
operational GBIs will provide the United States with a sufficient 
number of operational interceptors, considering the limited number of 
ICBM launch complexes in North Korea and Iran and the long development 
time required for construction of additional ones.
    While the emerging results of the MDA test restructure study will 
influence the final number of GBIs procured, the FY 2010 budget conveys 
a commitment to complete the procurement of 44 GBIs already on 
contract, some of which will go to the replacement and refurbishment of 
the 14 oldest interceptors in order to improve operational readiness of 
the fleet and extend GBI production capability. Completion of this 
procurement allows us to retain an active production capability which 
could be used to meet potential requirements for the European 
Capability, respond to test results, and implement future policy and 
fleet lifecycle management decisions. Moreover, similar to Air Force 
and Navy practices for Minuteman and Trident missiles, we intend to 
propose procurement of additional GBIs beyond the 44 already delivered 
or on contract for long-term follow-on operational test and evaluation.
    Mr. Turner. Your Department made significant programmatic decisions 
regarding U.S.- and European-based missile defense programs prior to 
the completion of the Administration's QDR. Can you please explain why? 
Did the applicable combatant commanders including NORTHCOM, STRATCOM, 
and EUCOM play a role in this decision-making process?
    General O'Reilly. The original schedule for Ballistic Missile 
Defense (BMD) in Europe projected a 2013 capability; however, delays in 
obtaining Host Nation Ratification and restrictions imposed by Section 
233 of the FY09 National Defense Authorization Act (NDAA) have resulted 
in revisions to the program schedule and funding obligation plans. The 
European Component program reflects compliance with FY09 NDAA 
requirements and continues to focus on two-stage interceptor 
development and test, pending the outcome of the QDR, in order to 
maintain the European Component of the BMDS as a viable missile defense 
option.
    USSTRATCOM and the Joint Staff represent the warfighter community 
within the Operational Forces Standing Committee and the Missile 
Defense Executive Board in reviewing BMDS development priorities and 
progress on a bimonthly basis. These stated programmatic changes are in 
concert with expressed warfighter ballistic missile defense capability 
needs.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. LAMBORN
    Mr. Lamborn. In a memo to the Commander of Strategic Command in 
February you wrote, ``Space-based intelligence, surveillance and 
reconnaissance (ISR) systems today provide many advantages to U.S. 
forces in combat. However, these systems were not designed specifically 
to support battlefield operations as their primary mission, yet their 
services have become essential to warfighting capabilities.'' Further, 
you noted that we need the capability to deliver an effects-based, 
tactically focused, ISR capability that is responsive to the 
warfighter. You specifically cite the need to determine how we can 
provide combatant commanders the ability to directly task space-based 
assets and downlink data in theater. These capabilities would provide 
commanders the ability to plan and direct space-based sensors with 
confidence and flexibility. In addition, receiving, processing, and 
disseminating quality data in operationally relevant timeframes would 
greatly enhance combat decision-making.
    Are you aware that commercial satellite data providers can 
immediately bolster the combatant commanders' access to high-quality 
imagery and products through direct tasking and downlink and other 
rapid tactical access methods?
    General Kehler. Yes, we are definitely aware of the many forward-
leaning advances and capabilities offered by the commercial space 
sector. One of the key drivers for today's active use of commercial 
satellites was the operational demand for digital imagery during DESERT 
STORM. As a result, current Eagle Vision (EV) commercial systems have 
responded to the U.S. military's need for rapid, tactical access to 
broad area and multispectral overhead imagery. From a military 
perspective, our partnership with commercial space is a key element in 
the way-ahead vision for maintaining information superiority across the 
broad spectrum of military operations.
    Mr. Lamborn. In a memo to the Commander of Strategic Command in 
February you wrote, ``Space-based intelligence, surveillance and 
reconnaissance (ISR) systems today provide many advantages to U.S. 
forces in combat. However, these systems were not designed specifically 
to support battlefield operations as their primary mission, yet their 
services have become essential to warfighting capabilities.'' Further, 
you noted that we need the capability to deliver an effects-based, 
tactically focused, ISR capability that is responsive to the 
warfighter. You specifically cite the need to determine how we can 
provide combatant commanders the ability to directly task space-based 
assets and downlink data in theater. These capabilities would provide 
commanders the ability to plan and direct space-based sensors with 
confidence and flexibility. In addition, receiving, processing, and 
disseminating quality data in operationally relevant timeframes would 
greatly enhance combat decision-making.
    Do you plan to leverage this critical capability that is currently 
available and if so, please provide details?
    General Kehler. We continue to explore a variety of commercial 
satellite options and are presently leveraging this important 
supporting capability. For example, the Eagle Vision system is a 
commercial architecture designed to provide theater commanders and 
combat units with rapid imagery products for mission planning. It is 
currently deployed and is both tasking and receiving commercial space 
imagery from a variety of platforms. Also of note, in the recent 
Schriever V Wargame in March 2009, we explored more effective ways for 
the United States to operate with commercial providers and coalition 
partners to assure space and information superiority. As a part of this 
evaluation, we organized an Industry Cell to operate in conjunction 
with the other government groups to more effectively integrate 
commercial products. While certain legal and foreign affiliation issues 
must still be considered, we continue to evaluate the feasibility of 
these private sector capabilities and, through currently fielded 
systems and future exercises, better understand the important 
contribution that commercial imagery plays in today's fight.
    Mr. Lamborn. General Kehler, Air Force Space Command (AFSPC) is 
responsible for the Space Surveillance Network (SSN) tasked with 
monitoring approximately 15,000 objects in the orbital threat 
environment. These objects are compounded by additional breakups, and 
the entire debris field must be tracked to prevent catastrophic 
collisions in space. In addition, the Haystack antenna at Millstone 
Hill is being deactivated for hardware upgrade, which degrades our SSN 
capability. Would AFSPC realize enhanced Space Situational Awareness by 
leveraging the existing network of MDA sensors through multi-mission 
sensor utilization?
    General Kehler. AFSPC recognizes the potential contributions of the 
MDA sensors network and continues to assess the value they could bring 
to Space Situational Awareness (SSA). Within the Command, we have a 
strategic approach toward achieving our Nation's SSA objectives which 
includes, as our number one priority, to ``integrate and leverage 
information from a variety of existing assets and sources--use current 
information in new ways.'' In fact a number of our sensors already 
perform important roles for missile warning, missile defense or space 
surveillance depending on the scenario. Back in July 2008, when we 
completed our National Interim SSA Architecture, we identified SSA 
capabilities that MDA sensors could contribute toward and included them 
in the architecture. Since that time, we have been involved in 
activities to find the best approach for data exchange between the two 
communities through a net-centric, service-oriented architecture. 
Finally, we are working with our mission partners to analyze the 
individual sensors' and networks' capabilities and their specific value 
to the mission along with any necessary agreements that would have to 
be put into place, funding sources, and concepts of operations changes.
    Mr. Lamborn. General O'Reilly, I understand that the sensors 
deployed in the Ballistic Missile Defense System (BMDS) collect 
information on orbital space objects. This information must be assessed 
for possible threat, and upon resolution, discarded as non-threatening. 
Assuming that the necessary modifications are implemented with no 
degradation of the primary Ballistic Missile Defense mission, would the 
MDA support enhanced information sharing with the space community 
through multi-mission sensor utilization?
    General O'Reilly. While these activities demonstrate the inherent 
capabilities of the X-Band radars to support the Space Situational 
Awareness (SSA) mission, full integration of these radars into the SSA 
mission will require development and testing of real-time software and 
connectivity into the Space Surveillance Network (SSN). Additionally, 
such use would need to be coordinated with the respective Combatant 
Commanders and appropriate tactics, techniques, and procedures 
developed.
    SSA is a difficult problem requiring a network of sensors 
worldwide. The Cobra Dane Upgrade (CDU) and the Upgraded Early Warning 
Radars (UEWRs) are currently connected to the SSN, provide multi-
mission capability, and have been contributing to the SSA mission for 
over 20 years. Additional MDA ground and sea-based radars can 
potentially support the SSA mission from their operational and test 
locations, supporting launch characterization, reducing track coverage 
gaps, and increasing capacity. Several of the X-Band radars have 
demonstrated their ability to support the mission in the past:
    <bullet>  The AN/TPY-2 radar has participated in the USSTRATCOM-
sponsored Extended Space Sensors Architecture (ESSA) Advanced 
Capability Technology Demonstration (ACTD)
        <all>  As part of this demonstration, the AN/TPY-2 radar at the 
        Pacific Missile Range Facility supported characterization of 
        the TACSAT-3 launch on May 19, 2009
    <bullet>  The Ground-Based Radar Prototype (GBR-P) has demonstrated 
an offline capability to perform long-range satellite tracking and 
imaging and orbital debris tracking
    <bullet>  During Operation Burnt Frost, multiple AN/TPY-2 radars 
and the SBX all provided tracks of the USA 193 satellite as well as 
high-resolution data of its destruction. Also, the CDU and the UEWRs 
provided pre-event characterization and post-intercept debris tracking.

                                  <all>

</pre></body></html>
